           67$78725< $1' $'0,1,675$7,9(
                 5(63216,%,/,7,(6

7KH ,QVSHFWRU *HQHUDO $FW RI 4<:; +3XEOLF /DZ <80785,/ DV DPHQGHG/ VHWV IRUWK VSHFLILF UH0
TXLUHPHQWV IRU VHPLDQQXDO UHSRUWV WR EH PDGH WR WKH &KDLUPDQ IRU WUDQVPLWWDO WR WKH &RQ0
JUHVV1 $ VHOHFWLRQ RI RWKHU VWDWXWRU\ DQG DGPLQLVWUDWLYH UHSRUWLQJ DQG HQIRUFHPHQW UHVSRQ0
VLELOLWLHV DQG DXWKRULWLHV DUH OLVWHG EHORZ=

                    2,* $8',7 $1' 0$1$*(0(17 5(9,(:
3XEOLF /DZ +31/1, <:0588    )HGHUDO 0DQDJHUV· )LQDQFLDO ,QWHJULW\ $FW
31/1          <:0698        'HEW &ROOHFWLRQ $FW RI 4<;5
31/1          43408:9       &KLHI )LQDQFLDO 2IILFHUV $FW RI 4<<3
31/1          43507;9       (QHUJ\ 3ROLF\ $FW RI 4<<5
31/1          436095        *RYHUQPHQW 3HUIRUPDQFH DQG 5HVXOWV $FW RI 4<<6
31/1          4360688       )HGHUDO $FTXLVLWLRQ 6WUHDPOLQLQJ $FW RI 4<<7
31/1          4360689       *RYHUQPHQW 0DQDJHPHQW 5HIRUP $FW RI 4<<7
31/1          4370439       ,QIRUPDWLRQ 7HFKQRORJ\ 0DQDJHPHQW 5HIRUP $FW RI 4<<9
31/1          437053;       )HGHUDO )LQDQFLDO 0DQDJHPHQW ,PSURYHPHQW $FW RI 4<<9
*HQHUDO $FFRXQWLQJ 2IILFH *RYHUQPHQW $XGLWLQJ 6WDQGDUGV


            &5,0,1$/ $1' &,9,/ ,19(67,*$7,9( $87+25,7,(6
7LWOH 8                     8QLWHG 6WDWHV &RGH/ VHFWLRQ 885D+7,
7LWOH 4;                    8QLWHG 6WDWHV &RGH/ VHFWLRQV RQ FULPH DQG FULPLQDO
                            SURFHGXUHV DV WKH\ SHUWDLQ WR 2,*·V RYHUVLJKW RI GHSDUWPHQWDO
                            SURJUDPV DQG HPSOR\HH PLVFRQGXFW
7LWOH 64                    8QLWHG 6WDWHV &RGH/ VHFWLRQ 6:5< HW VHT1/ WKH )DOVH &ODLPV $FW
                                                                     ig
                                                $SULO 5334 6HPL$QQXDO 5HSRUW




                                           7$%/( 2) &217(176

                                                                                                                                             3DJH

&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                                                  4
 +XPDQ &DSLWDO 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                           4
 3HUIRUPDQFH %DVHG 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                               6
 5HGHVLJQLQJ %XVLQHVV 3URFHVVHV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                         7
 ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                 8
 ,QIRUPDWLRQ 6HFXULW\ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1               9

&200,66,21 352),/( 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                            ;

7+( 2)),&( 2) ,163(&725 *(1(5$/ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 43

$8',76 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1   44
 $XGLW 5HSRUW /LVW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1           44
 6XPPDU\ RI 6LJQLILFDQW $XGLWV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                         45
   (YDOXDWLRQ RI WKH &RPPLVVLRQ·V 5HFRUGV 0DQDJHPHQW/ $XGLW 5HSRUW
     2,*0$5038033 +0DUFK :/ 5334, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                            45
   (YDOXDWLRQ RI WKH &RPPLVVLRQ·V ,PSOHPHQWDWLRQ RI (0)2,$/ $XGLW 5HSRUW
     2,*0$5034034 +0DUFK 53/ 5334, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                             47
 $XGLW )ROORZ0XS 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1           48
   5HYLHZ RI WKH &RPPLVVLRQ·V %XGJHW 'HYHORSPHQW DQG $OORFDWLRQ 3URFHVVHV
     :LWK D &RPSDULVRQ WR )LYH 6HOHFWHG 2WKHU )HGHUDO $JHQFLHV/ 2,*0$5035033
     +)HEUXDU\ 5</ 5333, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                 48
   (YDOXDWLRQ RI 3HUVRQQHO23D\UROO DQG )LQDQFLDO 6HUYLFHV 3URYLGHG WR WKH
     &RPPLVVLRQ E\ WKH 'HSDUWPHQW RI ,QWHULRU/ 2,*0$5037033 +-XO\ 58/ 5333, 1                                                                      48
   5HYLHZ RI WKH &RPPLVVLRQ·V ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW )XQFWLRQ/
     2,*0$5034033 +6HSWHPEHU 5</ 5333, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                         49

,163(&7,216 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1            4:
  ,QVSHFWLRQ 5HSRUW /LVW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1               4:
  6XPPDU\ RI 6LJQLILFDQW ,QVSHFWLRQV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                           4:
    6HOI0$VVHVVPHQW RI WKH &RPPLVVLRQ·V +XPDQ &DSLWDO/ ,QVSHFWLRQ 5HSRUW/
      2,*0,5034034 +)HEUXDU\ 47/ 5334, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                               4:
    ,QIRUPDWLRQ &ROOHFWLRQ RI 86,7& ,QWHUQHW 6HUYHUV/ ,QVSHFWLRQ 5HSRUW/
      2,*0,5035034 +)HEUXDU\ 49/ 5334, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                               4;




                                                                          L
                                                                   ig
                                               $SULO 5334 6HPL$QQXDO 5HSRUW




                            7$%/( 2) &217(1760&RQWLQXHG

                                                                                                                                          3DJH


,19(67,*$7,216 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4<
6XPPDU\ RI ,QYHVWLJDWLYH $FWLYLW\ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4<

27+(5 $&7,9,7,(6 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1               54
 5HJXODWRU\ 5HYLHZ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1             54
 *HQHUDO $FFRXQWLQJ 2IILFH +*$2, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                       54
 /LDLVRQ $FWLYLWLHV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1      56
 /HJLVODWLRQ /LDLVRQ $FWLYLWLHV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                56
 3HHU 5HYLHZ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1   57

5(3257,1* 5(48,5(0(176 ,1'(; 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 58

7$%/( 4 5(32576 :,7+ 48(67,21(' &2676 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 59

7$%/( 5 5(32576 :,7+ 5(&200(1'$7,216 7+$7 )81'6 %( 387
 72 %(77(5 86( 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 5:

*/266$5< 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 5;




                                                                       LL
                                           ig
                              $SULO 5334 6HPL$QQXDO 5HSRUW




                      &200,66,21·6 723
                   0$1$*(0(17 &+$//(1*(6
2XWOLQHG EHORZ DUH WKH ´7RS 0DQDJHPHQW &KDOOHQJHVµ IDFLQJ WKH ,QWHUQDWLRQDO 7UDGH
&RPPLVVLRQ +&RPPLVVLRQ, DV LGHQWLILHG E\ WKH 2IILFH RI ,QVSHFWRU *HQHUDO +2,*,1 7KURXJK
DXGLWV/ LQVSHFWLRQV DQG RWKHU DVVLVWDQFH/ WKH 2,* KDV EHHQ SUR0DFWLYHO\ KHOSLQJ WKH
&RPPLVVLRQ LQ DGGUHVVLQJ WKHVH FKDOOHQJHV1 5HFHQW 2,* DFWLYLWLHV UHODWLQJ WR HDFK
PDQDJHPHQW FKDOOHQJH DUH VXPPDUL]HG EHORZ1



                                 +XPDQ &DSLWDO 0DQDJHPHQW



+XPDQ FDSLWDO LV WKH &RPPLVVLRQ·V ODUJHVW UHVRXUFH DQG LWV HIIHFWLYH PDQDJHPHQW SURYLGHV
D FRQWLQXRXV FKDOOHQJH IRU WKH &RPPLVVLRQ1 3DUW RI WKLV FKDOOHQJH LV WR DFFXUDWHO\ SUHGLFW
WKH &RPPLVVLRQ·V YDU\LQJ ZRUNORDG1 7KLV LV D GLIILFXOW WDVN EHFDXVH RI WKH &RPPLVVLRQ·V
XQLTXH PLVVLRQ DQG IXQFWLRQV DQG WKH PDQ\ H[WHUQDO IDFWRUV WKDW DIIHFW WKH &RPPLVVLRQ·V
ZRUNORDG1 $QRWKHU SDUW RI WKLV FKDOOHQJH LV WKH QHHG WR FRQWLQXDOO\ UHDOLJQ WKH
&RPPLVVLRQ·V KXPDQ UHVRXUFHV WR UHVSRQG WR LWV YDU\LQJ ZRUNORDG1
$V DQ H[DPSOH RI ZRUNORDG YDULDELOLW\/ WKH QXPEHU RI 7LWOH 9,, DQWLGXPSLQJ DQG
FRXQWHUYDLOLQJ GXW\ FDVHV ILOHG RYHU WKH ODVW WHQ \HDUV KDV YDULHG IURP D KLJK RI 466 LQ )<
4<<5 WR D ORZ RI 47 LQ )< 4<<91 ,Q DGGLWLRQ/ WKH 8UXJXD\ 5RXQG $JUHHPHQWV $FW UHTXLUHV
WKH &RPPLVVLRQ WR FRQGXFW VXQVHW UHYLHZV RI DOO H[LVWLQJ RUGHUV HYHU\ 8 \HDUV1 ,QLWLDOO\ WKH
&RPPLVVLRQ ZDV UHTXLUHG WR UHYLHZ 63< RUGHUV WKDW ZHUH LQ H[LVWHQFH SULRU WR -DQXDU\ 4/
4<<81 7KHVH UHYLHZV ZHUH WR EH FRPSOHWHG GXULQJ D WKUHH0\HDU WUDQVLWLRQ SHULRG EHJLQQLQJ
LQ )< 4<<;1 7KLV UHSUHVHQWHG D VLJQLILFDQW LQFUHDVH LQ WKH &RPPLVVLRQ·V ZRUNORDG/ VLQFH
VXQVHW UHYLHZV FDQ UHTXLUH DV PXFK HIIRUW DV QHZ ILOLQJV1 0RUHRYHU/ VXQVHW UHYLHZV
UHSUHVHQW D SHUPDQHQW LQFUHDVH LQ WKH &RPPLVVLRQ·V ZRUNORDG VLQFH DOO H[LVWLQJ RUGHUV
KDYH WR EH UHYLHZHG HYHU\ ILYH \HDUV1 2QH DGYDQWDJH RI VXQVHW UHYLHZV IURP WKH VWDQGSRLQW
RI ZRUNORDG PDQDJHPHQW LV WKDW WKHLU QXPEHUV DUH PRUH SUHGLFWDEOH WKDQ QHZ ILOLQJV1
$ UHFHQW 2,* DQDO\VLV RI WKH &RPPLVVLRQ·V ZRUNIRUFH WUHQGV VKRZHG WKDW QHDUO\ D WKLUG RI
WKH &RPPLVVLRQ·V ZRUNIRUFH ZLOO EH HOLJLEOH IRU UHJXODU UHWLUHPHQW E\ WKH \HDU 53381 7KH
&RPPLVVLRQ WKXV IDFHV WKH FKDOOHQJH RI SUHVHUYLQJ WKH NQRZOHGJH DQG VNLOOV RI LWV ZRUNIRUFH
LQ WKH IDFH RI WKH SRVVLEOH ORVV RI LWV PRVW H[SHULHQFHG HPSOR\HHV1 2Q WKH SRVLWLYH VLGH RI WKLV
WUHQG/ WKH &RPPLVVLRQ LV OLNHO\ WR KDYH D VLJQLILFDQW RSSRUWXQLW\ IRU PDQDJHPHQW UHIRUP

                                               4
                                         ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG
LQ WKH QH[W IHZ \HDUV1 )LIW\ SHUFHQW RI FXUUHQW &RPPLVVLRQ VXSHUYLVRUV ZLOO EH HOLJLEOH IRU
UHWLUHPHQW RYHU WKH QH[W ILYH \HDUV1 7KH &RPPLVVLRQ PD\ FKRRVH QRW WR UHSODFH VRPH
UHWLULQJ VXSHUYLVRUV DV SDUW RI D GHOD\HULQJ LQLWLDWLYH1 3RVVLELOLWLHV IRU FKDQJH LQFOXGH
UHSODFLQJ VRPH RI LWV KLHUDUFKLFDO RIILFH VWUXFWXUHV ZLWK D WHDP VWUXFWXUH1 7KLV ZRXOG
IRUPDOO\ UHFRJQL]H WKH IDFW WKDW PXFK RI WKH &RPPLVVLRQ·V LQYHVWLJDWLYH DQG UHVHDUFK ZRUN
LV EHLQJ GRQH E\ PXOWL GLVFLSOLQDU\ WHDPV GUDZQ IURP YDULRXV RIILFHV1 $QRWKHU SRVVLELOLW\
IRU FKDQJH LV WR PRUH GLUHFWO\ DOLJQ WKH &RPPLVVLRQ·V RUJDQL]DWLRQDO VWUXFWXUH ZLWK LWV ILYH
VWUDWHJLF RSHUDWLRQV1
%XLOGLQJ DQG PDLQWDLQLQJ D TXDOLW\/ PLVVLRQ FDSDEOH &RPPLVVLRQ ZRUNIRUFH LQ D
FRPSHWLWLYH MRE PDUNHW ZLOO UHTXLUH VLJQLILFDQW PDQDJHPHQW DWWHQWLRQ1 7KH FKRLFH WKH
&RPPLVVLRQ IDFHV LV VLPLODU WR WKH FKRLFH IDFLQJ PDQ\ )HGHUDO DJHQFLHV= HLWKHU GHYRWH
DGGLWLRQDO PDQDJHPHQW UHVRXUFHV WR DGGUHVV WKHVH KXPDQ FDSLWDO LVVXHV RU UHDFW ZKHQ
WKH\ ULVH WR FULVLV SURSRUWLRQV1
7KH 2,* UHFHQWO\ FRQGXFWHG DQ ,QVSHFWLRQ RQ ´6HOI0$VVHVVPHQW RI WKH &RPPLVVLRQ·V
+XPDQ &DSLWDO1µ 7KLV ,QVSHFWLRQ IROORZHG JXLGHOLQHV FRQWDLQHG LQ *$2 5HSRUW
2&*033047& HQWLWOHG ´+XPDQ &DSLWDO 0 $ 6HOI $VVHVVPHQW &KHFNOLVW IRU $JHQF\ /HDGHUV1µ
'HWDLOV RI WKLV UHSRUW DUH RXWOLQHG RQ SDJH 4:1




                                             5
                                          ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG



                               3HUIRUPDQFH %DVHG 0DQDJHPHQW




7KH &RPPLVVLRQ KDV HPEUDFHG WKH FRQFHSW RI SHUIRUPDQFH0EDVHG PDQDJHPHQW DV
HPERGLHG LQ WKH *RYHUQPHQW 3HUIRUPDQFH DQG 5HVXOWV $FW +*35$,1 7KH FKDOOHQJH IRU WKH
&RPPLVVLRQ KDV EHHQ WR JR EH\RQG SHUIRUPDQFH0EDVHG PDQDJHPHQW DV DQ HOHPHQW RI KLJK
OHYHO SODQQLQJ WR SHUIRUPDQFH0EDVHG PDQDJHPHQW DV DQ DFWXDO GD\0WR0GD\ PDQDJHPHQW
FXOWXUH WKDW LV LQWHUZRYHQ LQWR DOO DVSHFWV RI WKH &RPPLVVLRQ·V RSHUDWLRQV1 7KLV UHTXLUHV QRW
RQO\ D FOHDU/ XQGHUVWDQGDEOH GHILQLWLRQ RI WKH &RPPLVVLRQ·V VWUDWHJLF JRDOV DQG REMHFWLYHV/
EXW WKHLU WUDQVODWLRQ LQWR VXSSRUWLQJ JRDOV DQG REMHFWLYHV IRU LQGLYLGXDO RIILFHV DQG
LQGLYLGXDO HPSOR\HHV1 2QFH WKLV WUDQVODWLRQ KDV RFFXUUHG/ WKHUH LV D QHHG IRU FRQWLQXRXV
PHDVXUHPHQW DQG HYDOXDWLRQ RI SHUIRUPDQFH DW DOO OHYHOV WR DVVHVV SURJUHVV WRZDUG JRDO
DWWDLQPHQW DQG WR DGMXVW DOORFDWLRQ RI UHVRXUFHV DV QHFHVVDU\1
7KH &RPPLVVLRQ KDV PDGH VRPH SURJUHVV LQ PHHWLQJ WKLV FKDOOHQJH1 %HJLQQLQJ LQ )< 5333/
WKH &RPPLVVLRQ LPSOHPHQWHG D EXGJHW VWUXFWXUH WKDW DOORZHG QHDUO\ DOO DFWLYLW\ FRVWV WR
EH DOORFDWHG DPRQJ LWV ILYH RSHUDWLRQV1 7KLV KDV HQDEOHG WKH &RPPLVVLRQ WR UHDGLO\ LGHQWLI\
DQG FRQWURO WKH UHVRXUFHV DOORFDWHG WR WKH YDULRXV VWUDWHJLF RSHUDWLRQV1 :KDW LV QRZ QHHGHG
LV D IXUWKHU UHILQHPHQW RI WKH EXGJHW VWUXFWXUH WR LGHQWLI\ UHVRXUFHV DOORFDWHG WR VSHFLILF
SHUIRUPDQFH REMHFWLYHV1 7KLV ZLOO SDYH WKH ZD\ IRU D WUXH SHUIRUPDQFH EXGJHWLQJ FDSDELOLW\
ZLWKLQ WKH &RPPLVVLRQ1 ,Q DGGLWLRQ/ WKH &RPPLVVLRQ QHHGV WR FRQWLQXH WR LPSURYH
PDQDJHPHQW HIIHFWLYHQHVV WKURXJK JUHDWHU DXWRPDWLRQ DQG LQWHJUDWLRQ RI LWV EXGJHW/
SURFXUHPHQW/ DVVHW PDQDJHPHQW/ DQG RWKHU ILQDQFLDO PDQDJHPHQW SURFHVVHV1
7KH 2,* LV FXUUHQWO\ FRQGXFWLQJ DQ LQVSHFWLRQ RI WKH &RPPLVVLRQ·V VWUDWHJLF SODQQLQJ
SURFHVV1




                                             6
                                         ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG




                                    5HGHVLJQLQJ %XVLQHVV 3URFHVVHV




7KH &RPPLVVLRQ·V FXUUHQW EXVLQHVV SURFHVVHV DUH VWLOO ODUJHO\ SDSHU0FHQWULF1 +RZHYHU/
DGYDQFHV LQ LQIRUPDWLRQ WHFKQRORJ\ RIIHU WKH SURPLVH RI DXWRPDWHG SURFHVVHV WKDW FRXOG
UHGXFH SDSHUZRUN DQG SURYLGH JUHDWHU HFRQRP\ DQG HIILFLHQF\ RI RSHUDWLRQ1 ,Q DGGLWLRQ/ WKH
*RYHUQPHQW 3DSHUZRUN (OLPLQDWLRQ $FW +*3($, RIIHUV DQ LQFHQWLYH IRU UHGXFLQJ
SDSHUZRUN E\ DFFRUGLQJ HOHFWURQLF UHFRUGV DQG VLJQDWXUHV WKH VDPH OHJDO VWDWXV DV SDSHU1
7KH &RPPLVVLRQ WKXV KDV DQ RSSRUWXQLW\ WR UHYLVH DQG LPSURYH HIILFLHQF\ LQ LWV FXUUHQW
EXVLQHVV SURFHVVHV WKURXJK JUHDWHU UHOLDQFH RQ HOHFWURQLF ILOLQJ/ VWRUDJH/ UHWULHYDO DQG
GLVVHPLQDWLRQ RI LQIRUPDWLRQ1 7KLV LV SDUWLFXODUO\ WUXH IRU LPSURYLQJ HIILFLHQF\ LQ LWV FRUH
EXVLQHVV SURFHVV RI FRQGXFWLQJ LPSRUW LQYHVWLJDWLRQV ZKLFK LQYROYH UHFHLSW DQG
WUDQVPLVVLRQ RI VXEVWDQWLDO DPRXQWV RI SDSHUZRUN1
7KH 2,* UHFHQWO\ FRPSOHWHG DQ DXGLW RI UHFRUGV PDQDJHPHQW DW WKH &RPPLVVLRQ1 7KLV
DXGLW IRXQG VLJQLILFDQW VKRUWFRPLQJV LQ WKH &RPPLVVLRQ·V UHFRUGV PDQDJHPHQW SURFHVV DQG
DQ DFFRPSDQ\LQJ ORVV RI HIILFLHQF\ DQG LQFUHDVHG FRVWV1 7KH 2,* PDGH VHYHUDO
UHFRPPHQGDWLRQV WR UHVROYH WKHVH SUREOHPV1 7KH XOWLPDWH VROXWLRQ IRU LPSURYLQJ UHFRUGV
PDQDJHPHQW DW WKH &RPPLVVLRQ LV WR PLJUDWH WR DQ DOO0HOHFWURQLF V\VWHP IRU UHFHLYLQJ/
VWRULQJ DQG PDQDJLQJ UHFRUGV1 'HWDLOV RI WKLV UHSRUW DUH RXWOLQHG RQ SDJH 451




                                             7
                                           ig
                              $SULO 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG



                              ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW


7KH UDSLG HYROXWLRQ RI LQIRUPDWLRQ WHFKQRORJ\/ SDUWLFXODUO\ LQ WKH DUHDV RI QHWZRUNLQJ DQG
WHOHFRPPXQLFDWLRQV/ SUHVHQWV WKH &RPPLVVLRQ ZLWK HQRUPRXV RSSRUWXQLWLHV IRU
PRGHUQL]LQJ LWV LQIRUPDWLRQ DQG PDQDJHPHQW V\VWHPV1 7KH LQWURGXFWLRQ RI DGGLWLRQDO
DXWRPDWLRQ LQWR WKH &RPPLVVLRQ·V EXVLQHVV SURFHVVHV ZLOO SURPRWH JUHDWHU HFRQRP\ DQG
HIILFLHQF\ ZKLOH IUHHLQJ XS KXPDQ FDSLWDO IRU KLJKHU OHYHO DFWLYLWLHV VXFK DV SODQQLQJ/
HYDOXDWLRQ DQG UHVHDUFK1 /LNHZLVH/ WKH DSSOLFDWLRQ RI PRGHUQ ZHE²EDVHG LQIRUPDWLRQ
DUFKLWHFWXUHV FDQ WUDQVIRUP WKH ZD\ WKH &RPPLVVLRQ LQWHUDFWV ZLWK LWV FXVWRPHUV DQG WKH
SXEOLF1
7KH FKDOOHQJH IRU WKH &RPPLVVLRQ LV WR SURYLGH WKH OHDGHUVKLS WR SURPRWH D VKDUHG YLVLRQ
RI FRQVWDQW LPSURYHPHQW LQ LWV EXVLQHVV V\VWHPV WKURXJK WKH DSSOLFDWLRQ RI PRGHUQ
LQIRUPDWLRQ WHFKQRORJ\1 6XFK OHDGHUVKLS LV QHFHVVDU\ WR DOORZ LQIRUPDWLRQ WHFKQRORJ\ WR
WUDQVIRUP WUDGLWLRQDO EXVLQHVV SURFHVVHV DQG DFKLHYH HIILFLHQFLHV FRPPRQ WR WKH
FRPPHUFLDO HQYLURQPHQW1 7KHUH PXVW EH D UHFRJQLWLRQ WKDW/ LQ WKH QHZ0HFRQRP\ HQYLURQ0
PHQW/ LQIRUPDWLRQ WHFKQRORJ\ LV MXVW DV DSSOLFDEOH WR FXVWRPHU0IDFLQJ VWUDWHJLF EXVLQHVV
SURFHVVHV DV LW LV WR EDFN0RIILFH SURFHVVHV/ OLNH DFFRXQWLQJ/ WR ZKLFK LW KDV WUDGLWLRQDOO\ EHHQ
DSSOLHG1
7KH &RQJUHVV KDV UHFRJQL]HG WKH SULRULW\ RI LQIRUPDWLRQ WHFKQRORJ\ LQ JRYHUQPHQW WKURXJK
OHJLVODWLRQ VXFK DV WKH &OLQJHU0&RKHQ $FW RI 4<<91 2,* UHFHQWO\ FRQGXFWHG DQ DXGLW RI WKH
&RPPLVVLRQ·V FRPSOLDQFH ZLWK WKH &OLQJHU0&RKHQ $FW1 $V D UHVXOW RI WKLV DXGLW/ ZH PDGH
RQH RI RXU PRVW LPSRUWDQW UHFRPPHQGDWLRQV WR WKH &RPPLVVLRQ/ QDPHO\/ WKDW WKH
&RPPLVVLRQ DSSRLQW D &KLHI ,QIRUPDWLRQ 2IILFHU UHSRUWLQJ LQGHSHQGHQWO\ DQG GLUHFWO\ WR
WKH &KDLUPDQ1 :H PDGH WKLV UHFRPPHQGDWLRQ GHVSLWH RXU UHFRJQLWLRQ WKDW LWV
LPSOHPHQWDWLRQ ZRXOG SUHVHQW WKH &RPPLVVLRQ ZLWK D UHFUXLWLQJ DQG EXGJHW FKDOOHQJH1
+RZHYHU/ RXU DXGLW UHYHDOHG WKDW VXFK D SRVLWLRQ ZDV HVVHQWLDO LI WKH &RPPLVVLRQ KRSHG
WR DFKLHYH WKH LPSURYHG HIIHFWLYHQHVV DQG HIILFLHQF\ LQ LWV RSHUDWLRQV WKDW FRXOG UHVXOW IURP
WKH DSSOLFDWLRQ RI PRGHUQ LQIRUPDWLRQ WHFKQRORJ\1 7R WKHLU FUHGLW/ WKH &KDLUPDQ DQG WKH
&RPPLVVLRQHUV KDYH DJUHHG WR LPSOHPHQW WKLV DXGLW UHFRPPHQGDWLRQ1 &RPPHQVXUDWH
ZLWK WKH UHVSRQVLELOLWLHV RI WKH &,2 SRVLWLRQ DQG WR DWWUDFW TXDOLW\ FDQGLGDWHV/ WKH
&RPPLVVLRQ GHWHUPLQHG WKDW WKH &,2 VKRXOG EH GHVLJQDWHG D 6HQLRU ([HFXWLYH 6HUYLFH
SRVLWLRQ1 7KH &RPPLVVLRQ LV FXUUHQWO\ VHHNLQJ DSSURYDO IURP 230 IRU VXFK D GHVLJQDWLRQ1

                                               8
                                         ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG


                                     ,QIRUPDWLRQ 6HFXULW\




$OWKRXJK WKH &RPPLVVLRQ KDV KDG YHU\ IHZ LQIRUPDWLRQ VHFXULW\ LQFLGHQWV WR GDWH/ LW VWLOO
IDFHV/ DV GR RWKHU IHGHUDO DJHQFLHV/ WKH FKDOOHQJH RI YXOQHUDELOLW\ WR FRPSXWHU0EDVHG
DWWDFNV1 7KH VRXUFHV RI SRWHQWLDO DWWDFN DUH QXPHURXV/ DQG WKH LVVXH LV FRPSRXQGHG E\
VHFXULW\ KROHV LQ FRPPHUFLDOO\ DYDLODEOH VRIWZDUH DQG KDUGZDUH1 0DQDJLQJ WKHVH VHFXULW\
ULVNV SUHVHQWV D VLJQLILFDQW UHVRXUFH FKDOOHQJH WR WKH &RPPLVVLRQ/ SDUWLFXODUO\ LQ YLHZ RI
WKH &RPPLVVLRQ·V JURZLQJ UHOLDQFH RQ LQIRUPDWLRQ WHFKQRORJ\1 7KH &RPPLVVLRQ/ OLNH PDQ\
IHGHUDO DJHQFLHV DQG SULYDWH RUJDQL]DWLRQV/ QHHGV WR FRQWLQXH WR VHHN PRUH HIILFLHQW ZD\V
WR HQVXUH WKDW LQIRUPDWLRQ VHFXULW\ ULVNV DIIHFWLQJ LWV RSHUDWLRQV DUH DVVHVVHG IXOO\ DQG WR
LPSOHPHQW DSSURSULDWH FRQWUROV WR PLWLJDWH WKHVH ULVNV1
,Q DFFRUGDQFH ZLWK WKH *RYHUQPHQW ,QIRUPDWLRQ 6HFXULW\ $FW/ WKH 2,* LV FXUUHQWO\
FRQGXFWLQJ D UHYLHZ RI LQIRUPDWLRQ VHFXULW\ DW WKH &RPPLVVLRQ1 7KLV UHYLHZ LV IRFXVLQJ RQ
FULWLFDO DVSHFWV RI LQIRUPDWLRQ V\VWHPV VHFXULW\/ LQFOXGLQJ &RPPLVVLRQ0ZLGH VHFXULW\
SURJUDP SODQQLQJ/ DFFHVV FRQWURO/ VHJUHJDWLRQ RI GXWLHV DQG VHUYLFH FRQWLQXLW\1 7KH UHVXOWV
RI WKLV UHYLHZ ZLOO EH XVHG WR VDWLVI\ D &RQJUHVVLRQDO UHSRUWLQJ UHTXLUHPHQW DQG WR LQIRUP
WKH &RPPLVVLRQ DV WR WKH VWDWXV RI LWV LQIRUPDWLRQ VHFXULW\ SURJUDP1




                                             9
                                                                                       ig
                                                                 $SULO 5334 6HPL$QQXDO 5HSRUW




                                                 8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ




                                                                                     &KDLUPDQ
                                                                               &200,66,21




    2IILFH RI WKH                                                                                $GPLQLVWUDWLRQ         2IILFH RI WKH              2IILFH RI          2IILFH RI
                           2SHUDWLRQV                                       2IILFH RI
   $GPLQLVWUDWLYH                                   2IILFH RI WKH                                   2IILFH RI             *HQHUDO                 ,QVSHFWRU            (TXDO
                           2IILFH RI WKH                                    ([WHUQDO
    /DZ -XGJHV                                       6HFUHWDU\                                    WKH 'LUHFWRU           &RXQVHO                   *HQHUDO           (PSOR\PHQW
                             'LUHFWRU                                       5HODWLRQV                                                                                2SSRUWXQLW\
                                                                         7UDGH 5HPHG\
                                                                         $VVLVWDQFH 2IILFH

                                                                                                                                             (PSOR\HH
                                                                                                                                            'HYHORSPHQW



                          2IILFH RI                                     2IILFH RI                   2IILFH RI                                                    2IILFH RI
   2IILFH RI                                       2IILFH RI                                                             2IILFH RI            2IILFH RI
                         ,QGXVWULHV                                   ,QIRUPDWLRQ                   )LQDQFH                                                     )DFLOLWLHV
  (FRQRPLFV                                     ,QYHVWLJDWLRQV                                                          3HUVRQQHO            3XEOLVKLQJ
                                                                        6HUYLFHV                                                                               0DQDJHPHQW




                         2IILFH RI
                       7DULII $IIDLUV              2IILFH RI
                        DQG 7UDGH               8QIDLU ,PSRUW
                       $JUHHPHQWV               ,QYHVWLJDWLRQV



%XGJHW &RPPLWWHH                                                                                       ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 6WHHULQJ &RPPLWWHH +,506&,
   $XWKRULW\= $GP1 2UGHU 33039/ GDWHG :259233                                                             $XWKRULW\= $GP1 2UGHU 3303;/ GDWHG ;258233

                                                                                                       /DERU00DQDJHPHQW 2FFXSDWLRQDO 6DIHW\ DQG +HDOWK &RPPLWWHH
'LUHFWLYHV 5HYLHZ &RPPLWWHH                                                                              $XWKRULW\= $GP1 2UGHU <<036/ GDWHG 5282<</ DQG $GP1 2UGHU <<03;/
    $XWKRULW\= &2:4080337/ GDWHG :2442<:                                                                 GDWHG <25<2<</ $GP1 2UGHU 34037/ GDWHG 5247234

'RFXPHQW ,PDJLQJ 2YHUVLJKW &RPPLWWHH +',2&,                                                            /DERU00DQDJHPHQW 3DUWQHUVKLS &RXQFLO
   $XWKRULW\= $GP1 2UGHU <9039/ GDWHG 62482<9                                                            $XWKRULW\= $GP1 2UGHU <<038/ GDWHG 62582<<

([HFXWLYH 5HVRXUFHV %RDUG +(5%,                                                                        6WUDWHJLF 3ODQQLQJ &RPPLWWHH +63&,
   $XWKRULW\= $GP1 2UGHU 3303:/ GDWHG ;255233                                                             $XWKRULW\= $GP1 2UGHU 34039/ GDWHG 624234

,QFHQWLYH $ZDUGV &RPPLWWHH +,$&,
    $XWKRULW\= $GP1 2UGHU <505:/ GDWHG :252<5 DQG $GP1 2UGHU <:035/ GDWHG 432482<9




                                                                                             :
                                        ig
                            $SULO 5334 6HPL$QQXDO 5HSRUW




                        &200,66,21 352),/(
                          KWWS=22ZZZ1XVLWF1JRY
7KH &RPPLVVLRQ LV DQ LQGHSHQGHQW/ TXDVL0MXGLFLDO/ QRQSDUWLVDQ )HGHUDO DJHQF\
HVWDEOLVKHG E\ &RQJUHVV ZLWK EURDG LQYHVWLJDWLYH SRZHUV RQ PDWWHUV RI WUDGH1 7KH PLVVLRQ
RI WKH &RPPLVVLRQ LV WZRIROG= DGPLQLVWHU 8161 WUDGH UHPHG\ ODZV LQ D IDLU DQG REMHFWLYH
PDQQHU> DQG SURYLGH WKH 3UHVLGHQW/ 8161 7UDGH 5HSUHVHQWDWLYH/ DQG WKH &RQJUHVV ZLWK
LQGHSHQGHQW/ TXDOLW\ DGYLFH DQG LQIRUPDWLRQ RQ PDWWHUV RI LQWHUQDWLRQDO WUDGH DQG
FRPSHWLWLYHQHVV1 0DMRU &RPPLVVLRQ DFWLYLWLHV LQFOXGH=
       P ,PSRUW ,QMXU\ ,QYHVWLJDWLRQV ²7KH &RPPLVVLRQ PDNHV GHWHUPLQDWLRQV LQ D
         YDULHW\ RI LPSRUW LQMXU\ LQYHVWLJDWLRQV/ SULPDULO\ DQWLGXPSLQJ DQG
         FRXQWHUYDLOLQJ GXW\ +$'2&9', LQYHVWLJDWLRQV FRQFHUQLQJ WKH HIIHFWV RI XQIDLUO\
         WUDGHG LPSRUWV RQ D 8161 LQGXVWU\1
       P ,QWHOOHFWXDO 3URSHUW\²%DVHG ,QYHVWLJDWLRQV²7KH &RPPLVVLRQ DGMXGLFDWHV
         FRPSODLQWV EURXJKW E\ GRPHVWLF LQGXVWULHV XQGHU VHFWLRQ 66: RI WKH 7DULII $FW
         RI 4<63 WKDW DOOHJH LQIULQJHPHQW RI 8161 LQWHOOHFWXDO SURSHUW\ ULJKWV DQG RWKHU
         XQIDLU PHWKRGV RI FRPSHWLWLRQ E\ LPSRUWHG JRRGV1
       P 5HVHDUFK²7KH &RPPLVVLRQ·V UHVHDUFK SURJUDP FRQVLVWV RI LWV SUREDEOH
         HFRQRPLF HIIHFWV LQYHVWLJDWLRQV XQGHU VHFWLRQ 464 RI WKH 7DULII $FW RI 4<63>
         DQDO\VLV RI WUDGH DQG FRPSHWLWLYHQHVV LVVXHV XQGHU VHFWLRQ 665> DQG SURYLGLQJ
         LQGHSHQGHQW DVVHVVPHQWV RQ D ZLGH UDQJH RI HPHUJLQJ WUDGH LVVXHV1
       P 7UDGH ,QIRUPDWLRQ 6HUYLFHV²7KH &RPPLVVLRQ·V WUDGH LQIRUPDWLRQ VHUYLFHV
         LQFOXGH VXFK DFWLYLWLHV DV WUDGH UHPHG\ DVVLVWDQFH> OLEUDU\ VHUYLFHV> OHJLVODWLYH
         UHSRUWV> PDLQWHQDQFH RI WKH +DUPRQL]HG 7DULII 6FKHGXOH> 6FKHGXOH ;;> 8161
         6FKHGXOH RI 6HUYLFHV &RPPLWPHQWV XQGHU WKH *HQHUDO $JUHHPHQW RQ 7DULIIV DQG
         7UDGH2:RUOG 7UDGH 2UJDQL]DWLRQ> SUHSDUDWLRQ RI 8161 VXEPLVVLRQV WR WKH
         ,QWHJUDWHG 'DWDEDVH RI WKH :RUOG 7UDGH 2UJDQL]DWLRQ> DQG FHUWDLQ RWKHU
         LQIRUPDWLRQ JDWKHULQJ/ SURFHVVLQJ/ DQG GLVVHPLQDWLRQ DFWLYLWLHV1
       P 7UDGH 3ROLF\ 6XSSRUW²7KH &RPPLVVLRQ VXSSRUWV WKH IRUPXODWLRQ RI 8161
         WUDGH SROLF\/ SURYLGLQJ REMHFWLYH LQSXW WR ERWK WKH ([HFXWLYH %UDQFK DQG WKH
         &RQJUHVV RQ WKH EDVLV RI WKH GLVWLQFWLYH H[SHUWLVH RI LWV VWDII1




                                           ;
                                        ig
                            $SULO 5334 6HPL$QQXDO 5HSRUW




7KH &RPPLVVLRQ KDV VL[ &RPPLVVLRQHUV/ DSSRLQWHG E\ WKH 3UHVLGHQW DQG FRQILUPHG E\ WKH
6HQDWH/ ZKR VHUYH RQH WHUP RI QLQH \HDUV/ XQOHVV DSSRLQWHG WR ILOO DQ XQH[SLUHG WHUP1 1R
PRUH WKDQ WKUHH &RPPLVVLRQHUV PD\ EH RI WKH VDPH SROLWLFDO SDUW\1 7KH FXUUHQW
&RPPLVVLRQHUV DUH 6WHSKHQ .RSODQ/ 'HDQQD 7DQQHU 2NXQ/ /\QQ 01 %UDJJ/ 0DUFLD (1
0LOOHU/ -HQQLIHU $1 +LOOPDQ/ DQG 'HQQLV 01 'HYDQH\1

7KH &KDLUPDQ DQG 9LFH &KDLUPDQ DUH GHVLJQDWHG E\ WKH 3UHVLGHQW DQG VHUYH D WZR0\HDU
VWDWXWRU\ WHUP1 7KH &KDLUPDQ LV UHVSRQVLEOH/ ZLWKLQ VWDWXWRU\ OLPLWV/ IRU WKH
DGPLQLVWUDWLYH IXQFWLRQV RI WKH &RPPLVVLRQ1

'XULQJ WKLV UHSRUWLQJ SHULRG/ VHYHUDO FKDQJHV LQ WKH FRPSRVLWLRQ RI WKH &RPPLVVLRQ
RFFXUUHG1 &RPPLVVLRQHU 7KHOPD -1 $VNH\·V WHUP H[SLUHG RQ 'HFHPEHU 49/ 53331 2Q
-DQXDU\ 6/ 5334/ IRUPHU 3UHVLGHQW &OLQWRQ DSSRLQWHG &RPPLVVLRQHU 'HQQLV 01 'HYDQH\
WR WKH &RPPLVVLRQ IRU WKH SHULRG WKDW ZLOO H[SLUH DW WKH HQG RI WKH ILUVW VHVVLRQ RI WKH
43: WK &RQJUHVV1

,Q )LVFDO <HDU +)<, 5334/ WKH &RPPLVVLRQ KDV '7;1; PLOOLRQ LQ DYDLODEOH IXQGV +'7;14
PLOOLRQ DSSURSULDWLRQ, DQG D VWDIILQJ SODQ IRU 6;<13 SHUPDQHQW SRVLWLRQV DQG 44 WHUP
SRVLWLRQV1 $OO HPSOR\HHV DUH ORFDWHG LQ RQH EXLOGLQJ DW 833 ( 6WUHHW/ 6:/ :DVKLQJWRQ/ '&1




                           'HQQLV 01 'HYDQH\/ &RPPLVVLRQHU




                                           <
                                               ig
                                    $SULO 5334 6HPL$QQXDO 5HSRUW




              7+( 2)),&( 2) ,163(&725 *(1(5$/
                     KWWS=22ZZZ1XVLWF1JRY2RLJ
7KH &RPPLVVLRQ HVWDEOLVKHG WKH 2,* SXUVXDQW WR WKH 4<;; DPHQGPHQWV WR WKH ,QVSHFWRU
*HQHUDO $FW1 7KH ,QVSHFWRU *HQHUDO UHSRUWV GLUHFWO\ WR WKH &KDLUPDQ1 7KH ,QVSHFWRU
*HQHUDO LV UHVSRQVLEOH IRU GLUHFWLQJ DQG FDUU\LQJ RXW DXGLWV/ LQYHVWLJDWLRQV/ DQG LQVSHFWLRQV
UHODWLQJ WR &RPPLVVLRQ SURJUDPV DQG RSHUDWLRQV1 7KH ,QVSHFWRU *HQHUDO DOVR FRPPHQWV
DQG SURYLGHV UHFRPPHQGDWLRQV RQ SURSRVHG OHJLVODWLRQ/ UHJXODWLRQV/ DQG SURFHGXUHV DV WR
WKHLU HFRQRP\/ HIILFLHQF\ DQG HIIHFWLYHQHVV1

,Q )< 5334 WKH 2,* ZDV DOORFDWHG 7 VWDII \HDUV1 7KLV SURYLGHG IRU WZR IXOO0WLPH +,QVSHFWRU
*HQHUDO DQG D VWDII DVVLVWDQW, DQG WKUHH SDUW0WLPH +DWWRUQH\0DGYLVRU/ DXGLWRU/ ODZ FOHUN,
SRVLWLRQV1


                                2IILFH RI ,QVSHFWRU *HQHUDO= 2UJDQL]DWLRQ
  )XOO0WLPH

          ,QVSHFWRU *HQHUDO




              6WDII $VVLVWDQW

                                                               3DUW0WLPH


                                            $WWRUQH\0$GYLVRU               $XGLWRU



7KH &RPPLVVLRQ DOVR DOORFDWHG ';3/333 IRU 2,* DXGLW DQG UHYLHZ VHUYLFHV IRU )< 53341



$QGUHZ :1 0DL MRLQHG WKH 2,* VWDII RQ
2FWREHU 63/ 5333 DV D SDUW0WLPH ODZ FOHUN1




                                                 43
                                       ig
                           $SULO 5334 6HPL$QQXDO 5HSRUW




                                     $8',76
                               $XGLW 5HSRUW /LVW
7ZR DXGLW UHSRUWV ZHUH LVVXHG GXULQJ WKLV SHULRG1 7KH\ ZHUH=
      P (YDOXDWLRQ RI WKH &RPPLVVLRQ·V 5HFRUGV 0DQDJHPHQW
      P (YDOXDWLRQ RI WKH &RPPLVVLRQ·V ,PSOHPHQWDWLRQ RI (0)2,$
3HQGLQJ DFWLRQV RQ RQH DXGLW UHSRUW ZHUH FRPSOHWHG DV GLVFXVVHG RQ SDJH 481




                        8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ




                                          44
                                         ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




                     6XPPDU\ RI 6LJQLILFDQW $XGLWV

     P (YDOXDWLRQ RI WKH &RPPLVVLRQ·V 5HFRUGV
       0DQDJHPHQW/ 2,*0$5038033 +0DUFK :/ 5334,
       KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50380331SGI




5HFRUGV PDQDJHPHQW LV DQ HVVHQWLDO IXQFWLRQ WKDW WKH &RPPLVVLRQ PXVW SHUIRUP WR
HIIHFWLYHO\ FDUU\ RXW LWV PLVVLRQ1 ,Q UHQGHULQJ GHFLVLRQV RQ WUDGH PDWWHUV/ WKH &RPPLVVLRQ
PXVW FRQVXOW GRFXPHQWHG UHFRUGV/ VRPH RI ZKLFK PD\ EH QHZO\ FUHDWHG/ VRPH RI ZKLFK PD\
EH VHYHUDO \HDUV ROG1 ,W LV LPSRUWDQW WKDW WKHVH UHFRUGV EH DFFXUDWH DQG WUXVWZRUWK\ DQG
WKDW WKH\ EH UHDGLO\ DFFHVVLEOH1 7KH FRQWLQXHG VWRUDJH DQG SUHVHUYDWLRQ RI WKHVH UHFRUGV
EH\RQG WKH WLPH RI LPPHGLDWH FRQVLGHUDWLRQ LV DOVR LPSRUWDQW LQ RUGHU WR PDLQWDLQ WKH
DFFRXQWDELOLW\ RI WKH &RPPLVVLRQ DQG WR NHHS UHFRUGV DYDLODEOH IRU IXWXUH SURFHHGLQJV1

7KH REMHFWLYH RI WKLV DXGLW ZDV WR GHWHUPLQH WKH HIIHFWLYHQHVV RI WKH &RPPLVVLRQ·V UHFRUGV
PDQDJHPHQW SURJUDP/ ZKHWKHU LW FRPSOLHV ZLWK WKH ODZV DQG UHJXODWLRQV JRYHUQLQJ WKH
PDQDJHPHQW RI )HGHUDO UHFRUGV/ DQG KRZ LW FDQ EH LPSURYHG1
,Q HYDOXDWLQJ WKH &RPPLVVLRQ·V UHFRUGV PDQDJHPHQW/ ZH FRPSDUHG LWV SROLFLHV DQG
SURFHGXUHV ZLWK WKH UHTXLUHPHQWV RI IHGHUDO UHFRUGV PDQDJHPHQW UHJXODWLRQV DV FRGLILHG
LQ 69 &)5 &KDSWHU ;,,/ 6XE&KDSWHU %1 :H IRXQG WKDW WKH &RPPLVVLRQ ZDV QRW LQ
FRPSOLDQFH ZLWK )HGHUDO 5HJXODWLRQV UHJDUGLQJ UHFRUGV PDQDJHPHQW1 6SHFLILFDOO\/ WKH
&RPPLVVLRQ LV QRW GLVSRVLQJ UHFRUGV LQ DFFRUGDQFH ZLWK VFKHGXOHV QHJRWLDWHG ZLWK/ DQG
DSSURYHG E\ WKH 1DWLRQDO $UFKLYHV DQG 5HFRUGV $GPLQLVWUDWLRQ1 :H DOVR IRXQG ODFN RI
FRPSOLDQFH LQ WKH DUHDV RI SHULRGLF UHYLHZV/ HVWDEOLVKPHQW RI SURJUDP REMHFWLYHV/ WUDLQLQJ/
DVVLJQPHQW RI UHVSRQVLELOLWLHV/ LVVXDQFH RI GLUHFWLYHV/ DQG PDLQWDLQLQJ LQYHQWRULHV RI
UHFRUGV1 ,Q JHQHUDO/ WKH DGPLQLVWUDWLRQ RI WKH &RPPLVVLRQ·V UHFRUGV PDQDJHPHQW SURJUDP
LV DQ DUHD LQ ZKLFK WKH &RPPLVVLRQ FRXOG VXEVWDQWLDOO\ LPSURYH/ UHVXOWLQJ LQ D PRUH
HIILFLHQW XVH RI UHVRXUFHV1

%DVHG RQ RXU DXGLW ILQGLQJV/ ZH PDGH VHYHUDO UHFRPPHQGDWLRQV WR FRUUHFW GHILFLHQFLHV LQ
WKH &RPPLVVLRQ·V UHFRUGV PDQDJHPHQW SURJUDP1 7KHVH UHFRPPHQGDWLRQV ZHUH GHVLJQHG
WR= +4, EULQJ WKH &RPPLVVLRQ LQWR FRPSOLDQFH ZLWK )HGHUDO 5HJXODWLRQV/ +5, SXW LQWR SODFH
SROLFLHV DQG SURFHGXUHV WKDW ZLOO LQVXUH FRQWLQXHG FRPSOLDQFH ZLWK )HGHUDO 5HJXODWLRQV/

                                           45
                                        ig
                            $SULO 5334 6HPL$QQXDO 5HSRUW




6800$5< 2) 6,*1,),&$17 $8',76³&RQWLQXHG
+6, LPSURYH WKH HIIHFWLYHQHVV DQG HIILFLHQF\ RI FXUUHQW UHFRUGV PDQDJHPHQW/ DQG +7, WDNH
DGYDQWDJH RI HOHFWURQLF VWRUDJH WHFKQRORJ\ WR LPSURYH WKH &RPPLVVLRQ·V IXWXUH UHFRUGV
PDQDJHPHQW1 2I WKHVH/ WKH UHFRPPHQGDWLRQV UHJDUGLQJ HOHFWURQLF UHFRUGV VWRUDJH PD\ EH
WKH PRVW LPSRUWDQW/ VLQFH WKH\ KROG WKH JUHDWHVW SURPLVH IRU PD[LPL]LQJ WKH HIIHFWLYHQHVV
DQG HFRQRP\ RI WKH &RPPLVVLRQ·V UHFRUGV PDQDJHPHQW1
0DQDJHPHQW DJUHHPHQW ZDV UHDFKHG RQ )HEUXDU\ 5;/ 5334 ZLWK PDQDJHPHQW DJUHHLQJ
WR LPSOHPHQW DOO RI WKH DXGLW UHFRPPHQGDWLRQV1




                                          46
                                         ig
                            $SULO 5334 6HPL$QQXDO 5HSRUW




6800$5< 2) 6,*1,),&$17 $8',76³&RQWLQXHG



      P (YDOXDWLRQ RI WKH &RPPLVVLRQ·V
        ,PSOHPHQWDWLRQ RI (0)2,$/ $XGLW 5HSRUW
        2,*0$5034034 +0DUFK 53/ 5334,
        KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50340341SGI




7KH )UHHGRP RI ,QIRUPDWLRQ $FW +)2,$, ZDV HQDFWHG LQ 4<99 WR SURYLGH WKH SXEOLF ZLWK
JUHDWHU DFFHVV WR LQIRUPDWLRQ IURP WKH )HGHUDO *RYHUQPHQW1 7KH (OHFWURQLF )UHHGRP RI
,QIRUPDWLRQ $FW $PHQGPHQWV RI 4<<9 +(0)2,$, DPHQGHG )2,$ WR SURYLGH JUHDWHU DFFHVV
WR )HGHUDO *RYHUQPHQW LQIRUPDWLRQ WKURXJK HOHFWURQLF PHDQV1
7KH REMHFWLYH RI WKLV DXGLW ZDV WR HYDOXDWH WKH &RPPLVVLRQ·V LPSOHPHQWDWLRQ RI (0)2,$
DQG WR LGHQWLI\ DQ\ DUHDV IRU LPSURYHPHQW RI WKH &RPPLVVLRQ·V SURFHVVHV FRQVLVWHQW ZLWK
WKH LQWHQW RI (0)2,$1 7R DFFRPSOLVK WKLV REMHFWLYH/ ZH DQDO\]HG &RPPLVVLRQ SURFHGXUHV IRU
SURFHVVLQJ )2,$ UHTXHVWV DQG GHYHORSLQJ DQQXDO UHSRUWV DQG FRPSDUHG WKHP WR
UHTXLUHPHQWV RI WKH )2,$ WR GHWHUPLQH WKH DGHTXDF\ RI WKRVH SURFHGXUHV1 :H DOVR
GHWHUPLQHG &RPPLVVLRQ FRPSOLDQFH ZLWK )2,$ SURYLVLRQV WR ´FXUUHQWO\ SXEOLVKµ LQ WKH
)HGHUDO 5HJLVWHU EDVLF LQIRUPDWLRQ RQ LWV DFWLYLWLHV1 :H DOVR UHYLHZHG WKH FRQWHQWV RI WKH
HOHFWURQLF UHDGLQJ URRP DQG FRPSDUHG WKDW WR LQIRUPDWLRQ UHTXHVWHG LQ )2,$ UHTXHVWV DQG
D OLVWLQJ RI 86,7& 'LUHFWLYHV DQG SXEOLFDWLRQV1 ,Q DGGLWLRQ/ ZH LGHQWLILHG DQG UHYLHZHG
SULRU DXGLW FRYHUDJH RI WKH LPSOHPHQWDWLRQ RI WKH )2,$1
:H IRXQG WKDW WKH &RPPLVVLRQ ZDV LQ JHQHUDO FRPSOLDQFH ZLWK )2,$ DV DPHQGHG E\
(0)2,$1
%DVHG RQ RXU ILQGLQJV/ ZH PDGH VHYHUDO UHFRPPHQGDWLRQV WR LPSURYH WKH &RPPLVVLRQ·V
(0)2,$ SURJUDP1 7KHVH UHFRPPHQGDWLRQV GHDOW ZLWK SXEOLFDWLRQ RI PRUH GHWDLOV RQ
LQIRUPDWLRQ DYDLODEOH HOHFWURQLFDOO\ IURP WKH &RPPLVVLRQ/ LPSURYHG SURFHVVLQJ RI )2,$
UHTXHVWV/ EHWWHU DFFRXQWLQJ DQG UHSRUWLQJ RI )2,$ UHTXHVWV/ DQG HVWDEOLVKPHQW RI D
FDSDELOLW\ IRU RQOLQH ILOLQJ DQG DFFHSWDQFH RI )2,$ UHTXHVWV1
0DQDJHPHQW DJUHHPHQW ZDV UHDFKHG RQ 0DUFK 8/ 5334 ZLWK PDQDJHPHQW DJUHHLQJ WR
LPSOHPHQW DOO RI WKH DXGLW UHFRPPHQGDWLRQV1




                                           47
                                        ig
                            $SULO 5334 6HPL$QQXDO 5HSRUW




                          $8',7 )2//2:²83
'XULQJ WKLV UHSRUWLQJ SHULRG/ SHQGLQJ DFWLRQV RQ RQH DXGLW ZHUH FRPSOHWHG DV IROORZV=
5HYLHZ RI WKH &RPPLVVLRQ·V %XGJHW 'HYHORSPHQW DQG $OORFDWLRQ 3URFHVVHV :LWK
D &RPSDULVRQ WR )LYH 6HOHFWHG 2WKHU )HGHUDO $JHQFLHV/ 2,*0$5035033
+)HEUXDU\ 5</ 5333,1 KWWS=22ZZZ=XVLWF1JRY22,*0$50350331SGI
0DQDJHPHQW DJUHHPHQW ZDV UHDFKHG RQ )HEUXDU\ 55/ 53331 7KH IROORZLQJ DJUHHG0XSRQ
DFWLRQV ZHUH FRPSOHWHG E\ 0DUFK 5;/ 5334=
       P 3UHSDUH ZULWWHQ EXGJHW SROLFLHV DQG SURFHGXUHV WR HQVXUH FRQWLQXLW\ LQ WKH HYHQW
         RI SHUVRQQHO FKDQJHV1
       P 2EWDLQ LQSXW IURP FRVW FHQWHU PDQDJHU·V UHJDUGLQJ WKHLU FRVW DFFRXQWLQJ QHHGV
         DQG PRGLI\ DFFRXQWLQJ SURFHGXUHV DFFRUGLQJO\ WR PHHW WKH PDQDJHUV· QHHGV IRU
         WLPHO\/ XVHIXO DQG FRPSOHWH DFFRXQWLQJ LQIRUPDWLRQ1
       P (VWDEOLVK SURFHGXUHV WR GRZQORDG DFFRXQWLQJ GDWD IURP WKH 'HSDUWPHQW RI
         ,QWHULRU DFFRXQWLQJ V\VWHP LQWR D GDWDEDVH DW WKH &RPPLVVLRQ DQG PDNH WKH
         GDWD DYDLODEOH WR PDQDJHUV1
$OO DJUHHG XSRQ DFWLRQV ZHUH FRPSOHWHG RQ 0DUFK 5;/ 53341


$W WKH HQG RI WKH UHSRUWLQJ SHULRG/ SHQGLQJ DFWLRQV ZHUH VWLOO RSHQ RQ UHFRPPHQGDWLRQV
UHSRUWHG LQ WKH SUHYLRXV VHPLDQQXDO UHSRUW IRU WKH IROORZLQJ WZR DXGLWV=
(YDOXDWLRQ RI 3HUVRQQHO23D\UROO DQG )LQDQFLDO 6HUYLFHV 3URYLGHG WR WKH
&RPPLVVLRQ E\ WKH 'HSDUWPHQW RI ,QWHULRU/ 2,*0$5037033 +-XO\ 58/ 5333,1
KWWS=22ZZZ=XVLWF1JRY2RLJ22,*0$50370331SGI
0DQDJHPHQW DJUHHPHQW ZDV UHDFKHG RQ -XO\ 8/ 53331 $V RI 0DUFK 5</ 5334/ WKH
&RPPLVVLRQ KDG LPSOHPHQWHG 4: RI 54 UHFRPPHQGDWLRQV1
$FWLRQV RQ IRXU UHFRPPHQGDWLRQV KDYH QRW \HW EHHQ FRPSOHWHG WKDW LQFOXGH XSGDWLQJ DQ
LQWHUQDO GLUHFWLYH/ LPSURYLQJ ILQDQFLDO UHSRUWLQJ LQIRUPDWLRQ WR PDQDJHUV/ GHYHORSLQJ D
SODQ IRU LPSOHPHQWLQJ DQ LQWHJUDWHG SURFXUHPHQW VXEV\VWHP/ DQG PDNLQJ XVH RI H[LVWLQJ
'HSDUWPHQW RI ,QWHULRU VHUYLFHV1




                                          48
                                       ig
                           $SULO 5334 6HPL$QQXDO 5HSRUW




$8',7 )2//2:083³&RQWLQXHG
5HYLHZ RI WKH &RPPLVVLRQ·V ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW )XQFWLRQ/
2,*0$5034033 +6HSWHPEHU 5</ 5333,1 KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50340331SGI
0DQDJHPHQW DJUHHPHQW ZDV UHDFKHG RQ 6HSWHPEHU 58/ 53331 $FWLRQV RQ WKH IROORZLQJ
UHFRPPHQGDWLRQV KDYH QRW \HW EHHQ FRPSOHWHG=
      P $SSRLQW D &,2 DQG DVVLJQ VXIILFLHQW UHVSRQVLELOLWLHV DQG UHVRXUFHV WR WKLV
        SRVLWLRQ VR WKDW WKH &,2 FDQ SURYLGH XQLILHG GLUHFWLRQ WR WKH &RPPLVVLRQ·V ,501
      P 6WUHQJWKHQ WKH ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW &RPPLWWHH1
      P 8SGDWH WKH ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 6WUDWHJLF 3ODQ1
      P ,PSURYH WKH PDQDJHPHQW RI WKH &RPPLVVLRQ·V ,50 SHUVRQQHO1
      P ,PSURYH LQIRUPDWLRQ VHFXULW\ SODQQLQJ1
,Q UHJDUG WR WKHVH UHFRPPHQGDWLRQV/ WKH &RPPLVVLRQ KDV UHTXHVWHG WKDW WKH 2IILFH RI
3HUVRQQHO 0DQDJHPHQW +230, GHVLJQDWH WKH &,2 DV D 6HQLRU ([HFXWLYH 6HUYLFH SRVLWLRQ1
&RPSOHWLRQ RI WKLV DFWLRQ DZDLWV WKH 230 UHVSRQVH WR WKH &RPPLVVLRQ·V UHTXHVW1
$GGLWLRQDOO\/ D GUDIW ,50 6WUDWHJLF 3ODQ KDV EHHQ VXEPLWWHG WR WKH ,50 6WHHULQJ
&RPPLWWHH ZKHUH LW LV DZDLWLQJ DSSURYDO1 )LQDOO\/ WKH &RPPLVVLRQ KDV UHYLVHG DQG
UHLVVXHG LWV GLUHFWLYH RQ LQIRUPDWLRQ VHFXULW\ DQG LVVXHG D QHZ KDQGERRN RQ LQIRUPDWLRQ
VHFXULW\1 +RZHYHU/ WKH &RPPLVVLRQ KDV QRW \HW FRPSOHWHG UHYLVLRQ RI LWV LQIRUPDWLRQ
VHFXULW\ SODQ1




                                         49
                                          ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




                                 ,163(&7,216
                                ,QVSHFWLRQ 5HSRUW /LVW
'XULQJ WKLV SHULRG WZR LQVSHFWLRQ UHSRUWV ZHUH LVVXHG DV VXPPDUL]HG EHORZ1
       P 6HOI0$VVHVVPHQW RI       WKH   &RPPLVVLRQ·V     +XPDQ     &DSLWDO/   2,*0,5034034
         +)HEUXDU\ 47/ 5334,>
       P ,QIRUPDWLRQ &ROOHFWLRQ RI 86,7& ,QWHUQHW 6HUYHUV/ 2,*0,5035034
         +)HEUXDU\ 49/ 5334,1


                       6XPPDU\ RI 6LJQLILFDQW ,QVSHFWLRQV
6HOI0$VVHVVPHQW RI WKH &RPPLVVLRQ·V +XPDQ &DSLWDO/ 2,*0,5034034 +)HEUXDU\ 47/
5334,1 KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0,50340341SGI
7KH SXUSRVH RI WKLV ,QVSHFWLRQ ZDV WR FRQGXFW D KXPDQ FDSLWDO VHOI0DVVHVVPHQW IRU WKH
&RPPLVVLRQ LQ DFFRUGDQFH ZLWK WKH JXLGHOLQHV FRQWDLQHG LQ *$2 5HSRUW 2&*033047*/
´+XPDQ &DSLWDO/ D 6HOI0$VVHVVPHQW &KHFNOLVW IRU $JHQF\ /HDGHUV1µ
:H PDGH WKH IROORZLQJ ILQGLQJV UHJDUGLQJ WKH KXPDQ FDSLWDO VHOI0DVVHVVPHQW=
       P 7KH &RPPLVVLRQ·V VWUDWHJLF SODQQLQJ GRFXPHQWV GR QRW SURYLGH D VSHFLILF
         GLVFXVVLRQ RI LWV KXPDQ FDSLWDO DQG KRZ LW LV DOLJQHG ZLWK WKH &RPPLVVLRQ·V
         VKDUHG YLVLRQ DQG VWUDWHJLF REMHFWLYHV1
       P 7KH &RPPLVVLRQ ODFNV IRUPDO ZRUNIRUFH/ VXFFHVVLRQ/ UHFUXLWLQJ DQG KLULQJ
         SODQV1
,Q YLHZ RI RXU ILQGLQJV ZH VXJJHVWHG WKDW=
7KH &RPPLVVLRQ·V VWUDWHJLF SODQQLQJ GRFXPHQWV VKRXOG SURYLGH D VSHFLILF GLVFXVVLRQ RI LWV
KXPDQ FDSLWDO DQG KRZ LW LV EHLQJ DOLJQHG ZLWK WKH &RPPLVVLRQ·V VKDUHG YLVLRQ DQG
VWUDWHJLF REMHFWLYHV1
7KH &RPPLVVLRQ·V KXPDQ UHVRXUFHV RUJDQL]DWLRQ VKRXOG GHYHORS D ZRUNIRUFH SODQ WKDW
JLYHV H[SOLFLW FRQVLGHUDWLRQ WR= +4, ,GHQWLILFDWLRQ RI IXWXUH ZRUNIRUFH UHTXLUHPHQWV/ FXUUHQW
FDSDELOLWLHV/ DQG JDSV WKDW QHHG WR EH ILOOHG> +5, $ UHFUXLWLQJ DQG KLULQJ VWUDWHJ\ WR ILOO
LGHQWLILHG ZRUNIRUFH JDSV> +6, :RUNIRUFH GHSOR\PHQW> +7, ([HFXWLYH VXFFHVVLRQ SODQV> +8,
(PSOR\HH WUDLQLQJ DQG GHYHORSPHQW> +9, (PSOR\HH FRPSHQVDWLRQ> +:, (PSOR\HH
SHUIRUPDQFH LQFHQWLYHV> +;, (PSOR\HH DQG ODERU UHODWLRQV> DQG +<, :RUNIRUFH
PRGHUQL]DWLRQ1

                                             4:
                                           ig
                              $SULO 5334 6HPL$QQXDO 5HSRUW




,163(&7,216³&RQWLQXHG
7KH &RPPLVVLRQ·V KXPDQ UHVRXUFHV RUJDQL]DWLRQ VKRXOG LQLWLDWH D FRQWLQXLQJ SURJUDP WR
FROOHFW/ DQDO\]H DQG HYDOXDWH GDWD RQ ZRUNIRUFH WUHQGV1
7KH &RPPLVVLRQ·V KXPDQ UHVRXUFHV RUJDQL]DWLRQ VKRXOG SHULRGLFDOO\ FRQGXFW
EHQFKPDUNLQJ DQDO\VHV WR FRPSDUH WKH &RPPLVVLRQ·V KXPDQ FDSLWDO SURJUDPV DQG
PDQDJHPHQW ZLWK RWKHU VLPLODU/ KLJK0SHUIRUPLQJ DJHQFLHV1
7KH &RPPLVVLRQ LV FXUUHQWO\ UHYLVLQJ LWV VWUDWHJLF SODQ DQG LV FRQVLGHULQJ LPSOHPHQWLQJ
RXU VXJJHVWLRQV LQ WKLV DUHD1 2QH SRVLWLYH VWHS WKH &RPPLVVLRQ KDV UHFHQWO\ WDNHQ ZDV WR
DSSRLQW LWV 'LUHFWRU RI 3HUVRQQHO WR LWV 6WUDWHJLF 3ODQQLQJ &RPPLWWHH1


,QIRUPDWLRQ &ROOHFWLRQ RI 86,7& ,QWHUQHW 6HUYHUV/ 2,*0,5035034
+)HEUXDU\ 49/ 5334,1 KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0,50350341SGI
7KH SXUSRVH RI WKLV ,QVSHFWLRQ ZDV WR SHUIRUP D FRPSUHKHQVLYH UHYLHZ RI WKH &RPPLVVLRQ·V
FROOHFWLRQ RI GDWD E\ LWV SXEOLF ,QWHUQHW VHUYHUV DQG WR IXOILOO WKH UHTXLUHPHQWV RI VHFWLRQ 979
RI +151 898; +31/1 4390887,1 7KH UHSRUW RQ WKLV LQVSHFWLRQ ZDV IRUZDUGHG WR WKH +RXVH
6XEFRPPLWWHH RQ 7UHDVXU\/ 3RVWDO 6HUYLFH DQG *HQHUDO *RYHUQPHQW/ &RPPLWWHH RQ
$SSURSULDWLRQV DQG 6HQDWH 6XEFRPPLWWHH RQ 7UHDVXU\ DQG *HQHUDO *RYHUQPHQW/
&RPPLWWHH RQ $SSURSULDWLRQV1
:H PDGH WKH IROORZLQJ ILQGLQJV UHJDUGLQJ WKH &RPPLVVLRQ·V FROOHFWLQJ RI SHUVRQDOO\
LGHQWLI\LQJ LQIRUPDWLRQ YLD LWV SXEOLF ZHE VLWHV=
       P 7KH &RPPLVVLRQ GHOLYHUV LQIRUPDWLRQ DQG VHUYLFHV YLD WKH ,QWHUQHW XVLQJ
         QXPHURXV SXEOLF DQG QRQ0SXEOLF ZHE VLWHV1
       P 7KH &RPPLVVLRQ·V SXEOLF ZHE VHUYHUV DQG ILUHZDOO DXWRPDWLFDOO\ FUHDWH VHSDUDWH
         ORJ LQIRUPDWLRQ DERXW YLVLWRUV WR &RPPLVVLRQ ZHE VHUYHUV1
       P 7KH &RPPLVVLRQ XVHV D ILUHZDOO WR FROOHFW GDWD UHJDUGLQJ DQ\ DFFHVV RU
         DWWHPSWHG DFFHVV WR &RPPLVVLRQ ,QWHUQHW UHVRXUFHV1
       P 7KH &RPPLVVLRQ GRHV QRW XVH DQ\ SHUVLVWHQW FRRNLHV EXW XVHV VHVVLRQ FRRNLHV RQ
         VHYHUDO RI LWV ,QWHUQHW VLWHV1
       P 7KH &RPPLVVLRQ FROOHFWV SHUVRQDOO\ LGHQWLILDEOH LQIRUPDWLRQ ZKHUH WKH YLVLWRU
         YROXQWDULO\ SURYLGHV WKH LQIRUPDWLRQ1
       P 1R DUHDV ZHUH IRXQG ZKHUH WKH &RPPLVVLRQ FROOHFWV SHUVRQDOO\ LGHQWLI\LQJ
         LQIRUPDWLRQ LQYROXQWDULO\ RU WKURXJK WKH XVH RI WKLUG SDUWLHV RU FRQWUDFWRUV1

                                              4;
                                       ig
                           $SULO 5334 6HPL$QQXDO 5HSRUW




,163(&7,216³&RQWLQXHG
      P 7KH &RPPLVVLRQ·V 3ULYDF\ 6WDWHPHQW VKRXOG EH PRUH VSHFLILF DV WR JLYH WKH
        SXEOLF PRUH JXLGDQFH DV WR ZKDW LV DXWRPDWLFDOO\ UHFRUGHG RQ WKH &RPPLVVLRQ·V
        ,QWHUQHW VHUYHU ORJ ILOHV DQG ZKDW LQIRUPDWLRQ LV FROOHFWHG YLD ZHE IRUPV DQG
        HPDLOV DQG WKH GLVSRVLWLRQ RI WKDW LQIRUPDWLRQ1 $OVR/ WKH 3ULYDF\ 6WDWHPHQW
        SURYLGHV QR QRWLFH RI WKH XVH RI VHVVLRQ FRRNLHV1
      P 7KH &RPPLVVLRQ FROOHFWV SHUVRQDOO\ LGHQWLI\LQJ LQIRUPDWLRQ YLD LWV ,QWHUQHW
        VHUYHUV RQO\ WR WKH H[WHQW QHFHVVDU\ WR SHUIRUP DGHTXDWH DQDO\VLV RI VLWH
        SHUIRUPDQFH/ PDLQWDLQ VHFXULW\ DQG WUDQVDFW EXVLQHVV ZLWK WKH JHQHUDO SXEOLF1
%DVHG RQ WKLV LQVSHFWLRQ ZH PDGH D UHFRPPHQGDWLRQ DV WR WKH FRQWHQW RI WKH &RPPLVVLRQ·V
3ULYDF\ 6WDWHPHQW ZKLFK ZDV SURPSWO\ LPSOHPHQWHG E\ WKH &RPPLVVLRQ1




                                         4<
                                            ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




                             ,19(67,*$7,216
7KH 2,* LQYHVWLJDWHV FRPSODLQWV DQG LQIRUPDWLRQ UHFHLYHG FRQFHUQLQJ SRVVLEOH YLRODWLRQV
RI ODZV/ UXOHV/ DQG UHJXODWLRQV/ PLVPDQDJHPHQW/ DEXVH RI DXWKRULW\/ DQG ZDVWH RI IXQGV1
7KHVH LQYHVWLJDWLRQV DUH LQ UHVSRQVH WR DOOHJDWLRQV/ FRPSODLQWV/ DQG LQIRUPDWLRQ UHFHLYHG
IURP HPSOR\HHV/ RWKHU JRYHUQPHQW DJHQFLHV/ FRQWUDFWRUV/ DQG RWKHU FRQFHUQHG LQGLYLGXDOV1
7KH REMHFWLYH RI WKLV SURJUDP LV WR HQVXUH WKH LQWHJULW\ RI WKH &RPPLVVLRQ DQG DVVXUH
LQGLYLGXDOV IDLU/ LPSDUWLDO/ DQG LQGHSHQGHQW LQYHVWLJDWLRQV1


                          6XPPDU\ RI ,QYHVWLJDWLYH $FWLYLW\
$ VXPPDU\ RI LQYHVWLJDWLYH DFWLYLW\ LV SUHVHQWHG EHORZ1



      &DVH :RUNORDG                  5HIHUUDOV 3URFHVVHG       ,QYHVWLJDWLYH 5HVXOWV
 2SHQ +4324233,       4       5HFHLYHG                  8     5HIHUUDOV IRU
                                                              3URVHFXWLRQ              4
 ,QLWLDWHG            4       ,QLWLDWHG ,QYHVWLJDWLRQ   4
                                                              5HIHUUDOV 'HFOLQHG
 &ORVHG               4       5HIHUUHG WR                     IRU 3URVHFXWLRQ          3
                              &RPPLVVLRQ                4
 2SHQ +6264234,       4                                       $GPLQLVWUDWLYH
                              (YDOXDWHG EXW 1R                $FWLRQ                   4
                              ,QYHVWLJDWLRQ
                              ,QLWLDWHG                 7



'XULQJ WKLV UHSRUWLQJ SHULRG/ RQH QHZ FDVH ZDV LQLWLDWHG DQG UHPDLQV RSHQ1

'XULQJ WKLV UHSRUWLQJ SHULRG/ 2,* FORVHG RQH LQYHVWLJDWLRQ UHJDUGLQJ DQ HPSOR\HH ZKR ZDV
FRQGXFWLQJ VHYHUDO EXVLQHVV YHQWXUHV XVLQJ &RPPLVVLRQ UHVRXUFHV1 7KH PDWWHU ZDV
UHIHUUHG WR &RPPLVVLRQ PDQDJHPHQW IRU DGPLQLVWUDWLYH GLVSRVLWLRQ1 7KH HPSOR\HH
VXEVHTXHQWO\ UHFHLYHG D 47 GD\ VXVSHQVLRQ ZLWKRXW SD\1




                                               53
                                          ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




                            27+(5 $&7,9,7,(6
5HJXODWRU\ 5HYLHZ
7KH ,QVSHFWRU *HQHUDO $FW/ 8 8161&1 $SS1 6/ 6HFWLRQ 7+D,+5,/ UHTXLUHV WKH 2,* WR UHYLHZ
H[LVWLQJ DQG SURSRVHG OHJLVODWLRQ DQG UHJXODWLRQV DQG WR PDNH UHFRPPHQGDWLRQV
FRQFHUQLQJ WKH LPSDFW RI VXFK OHJLVODWLRQ RU UHJXODWLRQV RQ WKH HFRQRP\ DQG HIILFLHQF\ RI
SURJUDPV DQG RSHUDWLRQV DGPLQLVWHUHG E\ WKH &RPPLVVLRQ1
7KH 2,* HYDOXDWHV WKH LPSDFW WKDW QHZ RU UHYLVHG SURFHGXUHV ZLOO KDYH RQ WKH HFRQRP\ DQG
HIILFLHQF\ RI SURJUDPV DQG RSHUDWLRQV1 7KH 2,* UHYLHZHG DQG FRPPHQWHG RQ GUDIW LQWHUQDO
GLUHFWLYHV RQ ,QIRUPDWLRQ 6HFXULW\ DQG 7UDQVSRUWDWLRQ )ULQJH %HQHILW 3URJUDP1 7KH 2,*
DOVR UHYLHZHG DQG FRPPHQWHG RQ ,QWHULP $PHQGPHQWV WR 4< &1)151 3DUW 539 WR LPSOHPHQW
WKH 81610&KLQD 5HODWLRQV $FW RI 53331


*HQHUDO $FFRXQWLQJ 2IILFH +*$2,
7KH ,QVSHFWRU *HQHUDO $FW VWDWHV WKDW HDFK ,QVSHFWRU *HQHUDO VKDOO JLYH SDUWLFXODU UHJDUG
WR WKH DFWLYLWLHV RI WKH &RPSWUROOHU *HQHUDO RI WKH 8QLWHG 6WDWHV ZLWK D YLHZ WRZDUG
DYRLGLQJ GXSOLFDWLRQ DQG HQVXULQJ HIIHFWLYH FRRUGLQDWLRQ DQG FRRSHUDWLRQ1
'XULQJ WKLV SHULRG/ WKH *$2 QRWLILHG WKH &RPPLVVLRQ WKDW LW ZRXOG FRQGXFW D UHYLHZ RI WKH
VWDWXV RI )UHH 7UDGH $UHD RI WKH $PHULFDV+)7$$, QHJRWLDWLRQV DQG WKH QDWXUH RI DQ\
LPSHGLPHQWV WKDW PD\ EH KLQGHULQJ WKH SURJUHVV RI WKH WDONV1 $V SDUW RI WKLV UHYLHZ/ WKH
*$2 UHTXHVWHG DVVLVWDQFH IURP WKH &RPPLVVLRQ LQ SURYLGLQJ WKH &RPPLVVLRQ·V
SHUVSHFWLYHV RQ WKH QDWXUH DQG VFRSH RI EHQHILWV WR WKH 8QLWHG 6WDWHV RI DQ )7$$/ WKH RYHUDOO
VWDWXV RI WKH )7$$ DQG RI PDMRU QHJRWLDWLQJ LVVXHV/ IDFWRUV DIIHFWLQJ SURJUHVV/ DQG ZKDW
PXVW VWLOO EH GRQH LI QHJRWLDWLRQV DUH WR EH VXFFHVVIXOO\ FRPSOHWHG E\ 53381 7KH &KDLUPDQ
RI WKH 6HQDWH ,QWHUQDWLRQDO 7UDGH 6XEFRPPLWWHH UHTXHVWHG WKDW WKH *$2 FRPSOHWH LWV
UHSRUW LQ DGYDQFH RI WKH $SULO 5334 )7$$ 0LQLVWHULDO1 7KH *$2 UHSRUW ZDV WUDQVPLWWHG WR
&KDLUPDQ *UDVVOH\ RQ 0DUFK 63/ 53341
'XULQJ WKLV SHULRG/ WKH *$2 DOVR UHTXHVWHG &RPPLVVLRQ DVVLVWDQFH UHODWLQJ WR WKH
IROORZLQJ PDWWHUV=
       P 3UHYHQWLRQ RI ERYLQH VSRQJLIRUP HQFHSKDORSDWK\ +%6(, IURP HQWHULQJ WKH 8161
       P 8161 0 EDVHG WUDGH LQ SHDQXWV
       P ,QWHUQDWLRQDO WUDGH LQ GLDPRQGV
       P )DFWRUV LQIOXHQFLQJ GRPHVWLF FDWWOH SULFHV

                                            54
                                        ig
                            $SULO 5334 6HPL$QQXDO 5HSRUW




27+(5 $&7,9,7,(6³&RQWLQXHG
       P &RPSDULVRQ RI 8QLWHG 6WDWHV DQG (XURSHDQ 8QLRQ QRQUHFLSURFDO WUDGH
         SUHIHUHQFH SURJUDPV1


'XULQJ WKLV SHULRG ZH UHYLHZHG WKH IROORZLQJ *$2 UHSRUWV UHODWHG WR LQWHUQDWLRQDO WUDGH=
       P 'HIHQVH 7UDGH= 7KH 8VH RI ,QWHOOHFWXDO 3URSHUW\ *HQHUDWHG DW 'HSDUWPHQW RI
         (QHUJ\·V /DERUDWRULHV WR 6DWLVI\ 2IIVHW 5HTXLUHPHQWV1 *$203405:451
         -DQXDU\ ;/ 53341
       P 7UDGH $GMXVWPHQW $VVLVWDQFH= ,PSDFW RI )HGHUDO $VVLVWDQFH WR )LUPV LV 8QFOHDU1
         *$20340451 'HFHPEHU 48/ 53331
       P 'HIHQVH 7UDGH= 2EVHUYDWLRQV RQ ,VVXHV &RQFHUQLQJ 2IIVHWV1 *$203405:;71
         'HFHPEHU 48/ 53331
       P 'HIHQVH 7UDGH= 'DWD &ROOHFWLRQ DQG &RRUGLQDWLRQ RQ 2IIVHWV1 *$20340;651
         2FWREHU 59/ 53331
       P 7UDGH $GMXVWPHQW $VVLVWDQFH= 7UHQGV/ 2XWFRPHV/ DQG 0DQDJHPHQW ,VVXHV LQ
         'LVORFDWHG :RUNHU 3URJUDPV1 *$203408<1 2FWREHU 46/ 53331
7KH &RPPLVVLRQ LV PHQWLRQHG LQ WKH *$2 UHSRUW ´7UDGH $GMXVWPHQW $VVLVWDQFH= 7UHQGV/
2XWFRPHV/ DQG 0DQDJHPHQW ,VVXHV LQ 'LVORFDWHG :RUNHU 3URJUDPV1µ 7KLV UHSRUW SURYLGHG
DQ DVVHVVPHQW RI RXWFRPHV IRU WZR IHGHUDO GLVSODFHG ZRUNHU SURJUDPV/ WKH 7UDGH
$GMXVWPHQW $VVLVWDQFH SURJUDP DQG WKH 1RUWK $PHULFDQ )UHH 7UDGH $JUHHPHQW
$GMXVWPHQW $VVLVWDQFH SURJUDP1 3URJUDP VHUYLFHV DQG EHQHILWV SD\PHQWV XQGHU WKHVH
SURJUDPV WRWDOHG '416 ELOOLRQ IURP ILVFDO \HDUV 4<<8 WR 4<<<1 %DVHG RQ OLPLWHG GDWD/ WKH
*$2 IRXQG WKDW RQO\ :8( RI GLVSODFHG ZRUNHUV ZKR UHFHLYHG WUDLQLQJ XQGHU WKHVH SURJUDPV
ZHUH DEOH WR ILQG HPSOR\PHQW XSRQ OHDYLQJ WKH SURJUDP1 7KH *$2 DOVR IRXQG WKDW RQO\
89( RI WKH ZRUNHUV ZKR IRXQG HPSOR\PHQW HDUQHG ;3 SHUFHQW RU PRUH RI WKHLU
SUH0VHSDUDWLRQ ZDJH1
7KHUH ZHUH QR UHFRPPHQGDWLRQV LQ WKH *$2 UHSRUWV WKDW ZH UHYLHZHG WKDW ZHUH GLUHFWHG
WR WKH &RPPLVVLRQ1




                                          55
                                              ig
                                $SULO 5334 6HPL$QQXDO 5HSRUW




27+(5 $&7,9,7,(6³&RQWLQXHG

/LDLVRQ $FWLYLWLHV


7KH $FWLQJ ,QVSHFWRU *HQHUDO LV DQ DFWLYH PHPEHU RI WKH ,QVSHFWRU
*HQHUDO FRPPXQLW\1 +H LV D PHPEHU RI WKH ([HFXWLYH &RXQFLO RQ
,QWHJULW\ DQG (IILFLHQF\ +(&,(,/ ZKLFK FRQVLVWV SULPDULO\ RI WKH
,QVSHFWRUV *HQHUDO DW WKH 67 GHVLJQDWHG IHGHUDO HQWLWLHV1 7KH ([HFXWLYH
&RXQFLO RQ ,QWHJULW\ DQG (IILFLHQF\ ZDV HVWDEOLVKHG E\ ([HFXWLYH 2UGHU
RQ 0D\ 44/ 4<<5 DQG FRQVLVWV RI 'HVLJQDWHG )HGHUDO (QWLW\ ,QVSHFWRUV
*HQHUDO DQG UHSUHVHQWDWLYHV RI WKH 2IILFH RI *RYHUQPHQW (WKLFV/ WKH
2IILFH RI 6SHFLDO &RXQVHO/ WKH )HGHUDO %XUHDX RI ,QYHVWLJDWLRQ DQG WKH
2IILFH RI 0DQDJHPHQW DQG %XGJHW1 +H DOVR SDUWLFLSDWHV LQ DFWLYLWLHV
VSRQVRUHG E\ WKH 3UHVLGHQW·V &RXQFLO RQ ,QWHJULW\ DQG (IILFLHQF\
+3&,(,/ ZKLFK FRQVLVWV SULPDULO\ RI WKH 3UHVLGHQWLDOO\0DSSRLQWHG
,QVSHFWRUV *HQHUDO1 7KH (&,( DQG 3&,( KDYH LGHQWLFDO IXQFWLRQV DQG
UHVSRQVLELOLWLHV WR SURPRWH LQWHJULW\ DQG HIILFLHQF\ DQG WR GHWHFW DQG
SUHYHQW IUDXG/ ZDVWH/ DQG DEXVH LQ )HGHUDO SURJUDPV1




/HJLVODWLYH /LDLVRQ $FWLYLWLHV
7KH $FWLQJ ,QVSHFWRU *HQHUDO/ DORQJ ZLWK RWKHU ,*·V/ WHVWLILHG EHIRUH WKH 6XEFRPPLWWHH RQ
1DWLRQDO 6HFXULW\/ 9HWHUDQV $IIDLUV/ DQG ,QWHUQDWLRQDO 5HODWLRQV RQ 0DUFK 48/ 53341 7KH
VXEMHFW RI WKH KHDULQJ ZDV 9XOQHUDELOLWLHV WR :DVWH/ )UDXG DQG $EXVH= ,QVSHFWRU *HQHUDO
9LHZV RQ ,QWHUQDWLRQDO 5HODWLRQV DQG 7UDGH 3URJUDPV1 0RUH VSHFLILFDOO\/ WKH WHVWLPRQ\
UHODWHG WR WKH PDMRU SHUIRUPDQFH DQG PDQDJHPHQW FKDOOHQJHV FRQIURQWLQJ WKH
&RPPLVVLRQ> WKH HFRQRP\/ HIILFLHQF\/ DQG HIIHFWLYHQHVV LQ WKH RSHUDWLRQV RI WKH
&RPPLVVLRQ> DQG WKH &RPPLVVLRQ·V DELOLW\ WR PHHW SHUIRUPDQFH DQG DFFRXQWDELOLW\
PHDVXUHPHQWV DQG JRDOV XQGHU WKH *RYHUQPHQW 3HUIRUPDQFH DQG 5HVXOWV $FW +*35$,1
/DVW \HDU/ WKH &KDLUPDQ RI WKH &RPPLWWHH RQ *RYHUQPHQW 5HIRUP LQWURGXFHG OHJLVODWLRQ
WKDW ZRXOG UHTXLUH DJHQFLHV WR FRQGXFW UHFRYHU\ DXGLWLQJ IRU FHUWDLQ FRQWUDFWV LQWR ZKLFK
WKH\ KDG HQWHUHG1 7KH &RPPLWWHH VXEPLWWHG D UHTXHVW VHHNLQJ VLJQLILFDQW H[DPSOHV RI
LQVWDQFHV RI LPSURSHU FRQWUDFW SD\PHQWV WKDW WKH 2,* KDG XQFRYHUHG LQ WKH SDVW WKUHH WR
ILYH \HDUV1 2,* UHSRUWHG WKDW WKH &RPPLVVLRQ KDG QR VLJQLILFDQW H[DPSOHV RI LQVWDQFHV
ZKHUH WKH &RPPLVVLRQ KDG RYHUSDLG RU KDG QRW EHHQ FUHGLWHG SURSHUO\ RQ D FRQWUDFW IRU
JRRGV RU VHUYLFHV LQ WKH ODVW ILYH \HDUV1

                                                 56
                                         ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




27+(5 $&7,9,7,(6³&RQWLQXHG
7KH &RQVROLGDWHG $SSURSULDWLRQV $FW FRQWDLQHG D SURYLVLRQ WKDW UHTXLUHV 2,*V WR VXEPLW
D TXDUWHUO\ UHSRUW WR WKH +RXVH DQG 6HQDWH $SSURSULDWLRQV &RPPLWWHHV ZKLFK DQDO\]HV
ZKHWKHU WKHLU UHVSHFWLYH DJHQFLHV DUH SURPSWO\ SD\LQJ IRU DQ\ ZDWHU DQG VHZHU VHUYLFHV
SURYLGHG WR WKHP E\ WKH '& :DWHU DQG 6HZHU $XWKRULW\ SXUVXDQW WR VHFWLRQV 7604885 DQG
7604945 RI WKH '1&1 FRGH1 2,* UHSRUWHG WKDW/ SXUVXDQW WR RXU OHDVH DJUHHPHQW/ WKH
&RPPLVVLRQ PDNHV SD\PHQW IRU WKH ZDWHU DQG VHZHU VHUYLFHV DV SDUW RI LWV OHDVH SD\PHQWV
WR WKH *HQHUDO 6HUYLFHV $GPLQLVWUDWLRQ1
)LQDOO\/ WKH 2,* FRQGXFWHG DQ ,QVSHFWLRQ UHJDUGLQJ SHUVRQDOO\ LGHQWLILDEOH LQIRUPDWLRQ
FROOHFWHG E\ WKH &RPPLVVLRQ RQ LWV ,QWHUQHW VLWHV SXUVXDQW WR VHFWLRQ 989 RI +151 898;1 7KH
,QVSHFWLRQ 5HSRUW/ 2,*0,5035034/ GDWHG )HEUXDU\ 49/ 5334 LV GLVFXVVHG LQ WKH ,QVSHFWLRQ
6HFWLRQ RQ SDJH 4;1


3HHU 5HYLHZ
7KH 3HHU 5HYLHZ &RRUGLQDWRU IRU WKH (&,( DUUDQJHG IRU WKH ,QVSHFWRU *HQHUDO RI WKH
&RQVXPHU 3URGXFW 6DIHW\ &RPPLVVLRQ +&36&, WR FRQGXFW DQ H[WHUQDO TXDOLW\ UHYLHZ RI WKH
2,*1 7KH &36& ,QVSHFWRU *HQHUDO FRPSOHWHG WKH UHYLHZ LQ DFFRUGDQFH ZLWK WKH JXLGHOLQHV
HVWDEOLVKHG E\ WKH 3UHVLGHQW·V &RXQFLO RQ ,QWHJULW\ DQG (IILFLHQF\1 ,Q KHU UHSRUW LVVXHG RQ
0DUFK :/ 5334/ WKH &36& ,QVSHFWRU *HQHUDO FRQFOXGHG WKDW WKH 2,* KDV DQ HIIHFWLYH
LQWHUQDO TXDOLW\ FRQWURO V\VWHP LQ SODFH/ DQG DXGLWV DUH EHLQJ SHUIRUPHG LQ DFFRUGDQFH ZLWK
*RYHUQPHQW $XGLWLQJ 6WDQGDUGV1
$W WKH UHTXHVW RI WKH 3HHU 5HYLHZ &RRUGLQDWRU/ WKH 2,* FRQGXFWHG DQ H[WHUQDO TXDOLW\
UHYLHZ RI WKH 2,* RI WKH 1DWLRQDO (QGRZPHQW IRU WKH +XPDQLWLHV GXULQJ WKLV SHULRG1




                                           57
                                          ig
                            $SULO 5334 6HPL$QQXDO 5HSRUW




              5(3257,1* 5(48,5(0(176 ,1'(;
7KH ,QVSHFWRU *HQHUDO $FW RI 4<:;/ DV DPHQGHG +4<;;,/ VSHFLILHV UHSRUWLQJ UHTXLUHPHQWV
IRU VHPLDQQXDO UHSRUWV1
&,7$7,21            5(3257,1* 5(48,5(0(176                                              3$*(

6HFWLRQ 7+D,+5,     5HFRPPHQGDWLRQV FRQFHUQLQJ WKH LPSDFW RI VXFK OHJLVODWLRQ RU         54
                    UHJXODWLRQV RQ WKH HFRQRP\ DQG HIILFLHQF\ LQ WKH DGPLQLVWUDWLRQ
                    RI SURJUDPV DQG RSHUDWLRQV DGPLQLVWHUHG RU ILQDQFHG E\ WKH &RPPLVVLRQ

6HFWLRQ 8+D,+4,     'HVFULSWLRQ RI VLJQLILFDQW SUREOHPV/ DEXVHV/ DQG GHILFLHQFLHV        1RQH
                    UHODWLQJ WR WKH DGPLQLVWUDWLRQ RI SURJUDPV DQG RSHUDWLRQV

6HFWLRQ 8+D,+5,     'HVFULSWLRQ RI WKH UHFRPPHQGDWLRQV IRU FRUUHFWLYH DFWLRQ PDGH        1RQH
                    ZLWK UHVSHFW WR VLJQLILFDQW SUREOHPV/ DEXVHV/ RU GHILFLHQFLHV

6HFWLRQ 8+D,+6,     ,GHQWLILFDWLRQ RI HDFK VLJQLILFDQW UHFRPPHQGDWLRQ GHVFULEHG LQ       48049
                    SUHYLRXV VHPLDQQXDO UHSRUWV RQ ZKLFK FRUUHFWLYH DFWLRQ KDV QRW
                    EHHQ FRPSOHWHG

6HFWLRQ 8+D,+7,     6XPPDU\ RI PDWWHUV UHIHUUHG WR SURVHFXWLYH DXWKRULWLHV DQG WKH          53
                    SURVHFXWLRQV DQG FRQYLFWLRQV ZKLFK KDYH UHVXOWHG

6HFWLRQ 8+D,+8,     6XPPDU\ RI HDFK UHSRUW PDGH WR WKH KHDG RI WKH HVWDEOLVKPHQW
                    XQGHU ZKLFK LQIRUPDWLRQ RU DVVLVWDQFH ZDV XQUHDVRQDEO\ UHIXVHG       1RQH

6HFWLRQ 8+D,+9,     /LVWLQJ RI HDFK DXGLW UHSRUW                                         44047

6HFWLRQ 8+D,+:,     6XPPDU\ RI HDFK VLJQLILFDQW UHSRUW                                   4404;

6HFWLRQ 8+D,+;,     6WDWLVWLFDO WDEOHV VKRZLQJ $XGLW 5HSRUWV04XHVWLRQHG &RVWV               59

6HFWLRQ 8+D,+<,     6WDWLVWLFDO WDEOHV VKRZLQJ $XGLW 5HSRUWV0)XQGV 3XW WR %HWWHU 8VH        5:

6HFWLRQ 8+D,+43,    6XPPDU\ RI HDFK DXGLW UHSRUW LVVXHG EHIRUH WKH FRPPHQFHPHQW RI
                    WKH UHSRUWLQJ SHULRG IRU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH
                    E\ WKH HQG RI WKH UHSRUWLQJ SHULRG                               1RQH

6HFWLRQ 8+D,+44,    'HVFULSWLRQ DQG H[SODQDWLRQ RI WKH UHDVRQV IRU DQ\ VLJQLILFDQW UHYLVHG
                    PDQDJHPHQW GHFLVLRQV                                                   1RQH

6HFWLRQ 8+D,+45,    ,QIRUPDWLRQ FRQFHUQLQJ DQ\ VLJQLILFDQW PDQDJHPHQW GHFLVLRQ
                    ZLWK ZKLFK WKH ,QVSHFWRU *HQHUDO LV LQ GLVDJUHHPHQW                  1RQH




                                            58
                                          ig
                                $SULO 5334 6HPL$QQXDO 5HSRUW




                    7DEOH 4
     $8',7 5(32576 :,7+ 48(67,21(' &2676
                                                                           'ROODU 9DOXH

                                          1XPEHU RI            4XHVWLRQHG          8QVXSSRUWHG
                                            5HSRUWV                 &RVWV                &RVWV

$1   )RU ZKLFK QR PDQDJHPHQW
     GHFLVLRQ KDV EHHQ PDGH
     E\ WKH FRPPHQFHPHQW RI
     WKH SHULRG                                  3                     3                    3

%1   :KLFK ZHUH LVVXHG GXULQJ
     WKH UHSRUWLQJ SHULRG                        4                 '4/333                   3

     6XEWRWDOV +$.%,                             4                 '4/333                   3

&1   )RU ZKLFK D PDQDJHPHQW
     GHFLVLRQ ZDV PDGH GXULQJ
     WKH UHSRUWLQJ SHULRG                        4                 '4/333                   3

     +L,     'ROODU YDOXH RI
             GLVDOORZHG FRVWV                    4                 '4/333                   3

     +LL,    'ROODU YDOXH RI FRVWV
             QRW GLVDOORZHG                      3                     3                    3

'1   )RU ZKLFK QR PDQDJHPHQW
     GHFLVLRQ KDV EHHQ PDGH E\
     WKH HQG RI WKH UHSRUWLQJ
     SHULRG                                      3                     3                    3

(1   5HSRUWV IRU ZKLFK QR
     PDQDJHPHQW GHFLVLRQ
     ZDV PDGH ZLWKLQ VL[
     PRQWKV RI LVVXDQFH                          3                     3                    3




                                            59
                                             ig
                               $SULO 5334 6HPL$QQXDO 5HSRUW




                     7DEOH 5
     $8',7 5(32576 :,7+ 5(&200(1'$7,216
        7+$7 )81'6 %( 387 72 %(77(5 86(
                                                              1XPEHU RI   'ROODU
                                                                5HSRUWV    9DOXH

$1   )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH
     E\ WKH FRPPHQFHPHQW RI WKH SHULRG                               3         3

%1   :KLFK ZHUH LVVXHG GXULQJ WKH UHSRUWLQJ SHULRG                   4    ':;/86:

     6XEWRWDOV +$.%,                                                 4    ':;/86:

&1   )RU ZKLFK D PDQDJHPHQW GHFLVLRQ ZDV PDGH
     GXULQJ WKH UHSRUWLQJ SHULRG                                     4    ':;/86:

     +L,     'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH
             DJUHHG WR E\ PDQDJHPHQW                                 4    ':;/86:

     +LL,    'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH
             QRW DJUHHG WR E\ PDQDJHPHQW                             3         3

'1   )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH
     E\ WKH HQG RI WKH UHSRUWLQJ SHULRG                              3         3

(1   5HSRUWV IRU ZKLFK QR PDQDJHPHQW GHFLVLRQ ZDV PDGH
     ZLWKLQ VL[ PRQWKV RI LVVXDQFH                                   3         3




                                                5:
                                         ig
                             $SULO 5334 6HPL$QQXDO 5HSRUW




                                   */266$5<
7KH IROORZLQJ GHILQLWLRQV DSSO\ WR WKH WHUPV XVHG LQ WKLV UHSRUW1
4XHVWLRQHG &RVW              PHDQV D FRVW WKDW LV TXHVWLRQHG E\ WKH 2IILFH EHFDXVH RI=
                             +4, DQ DOOHJHG YLRODWLRQ RI D SURYLVLRQ RI D ODZ/ UHJXODWLRQ/
                             FRQWUDFW/ JUDQW/ FRRSHUDWLYH DJUHHPHQW/ RU RWKHU DJUHHPHQW RU
                             GRFXPHQW JRYHUQLQJ WKH H[SHQGLWXUH RI IXQGV> +5, D ILQGLQJ
                             WKDW/ DW WKH WLPH RI WKH DXGLW/ VXFK FRVW LV QRW VXSSRUWHG E\
                             DGHTXDWH GRFXPHQWDWLRQ> RU +6, D ILQGLQJ WKDW WKH H[SHQGLWXUH
                             RI IXQGV IRU WKH LQWHQGHG SXUSRVH LV XQQHFHVVDU\ RU
                             XQUHDVRQDEOH>

8QVXSSRUWHG &RVW             PHDQV D FRVW WKDW LV TXHVWLRQHG E\ WKH 2IILFH EHFDXVH WKH
                             2IILFH IRXQG WKDW/ DW WKH WLPH RI WKH DXGLW/ VXFK FRVW LV QRW
                             VXSSRUWHG E\ DGHTXDWH GRFXPHQWDWLRQ>

'LVDOORZHG &RVW              PHDQV D TXHVWLRQHG FRVW WKDW PDQDJHPHQW/ LQ D PDQDJHPHQW
                             GHFLVLRQ/ KDV VXVWDLQHG RU DJUHHG VKRXOG QRW EH FKDUJHG WR WKH
                             *RYHUQPHQW>

5HFRPPHQGDWLRQ WKDW          PHDQV D UHFRPPHQGDWLRQ E\ WKH 2IILFH WKDW IXQGV FRXOG EH
IXQGV EH SXW WR EHWWHU       XVHG PRUH HIILFLHQWO\ LI PDQDJHPHQW RI DQ HVWDEOLVKPHQW WRRN
XVH                          DFWLRQV WR LPSOHPHQW DQG FRPSOHWH WKH UHFRPPHQGDWLRQ/
                             LQFOXGLQJ=
                             +4, UHGXFWLRQ LQ RXWOD\V> +5, GHREOLJDWLRQ RI IXQGV IURP
                             SURJUDPV RU RSHUDWLRQV> +6, ZLWKGUDZDO RI LQWHUHVW VXEVLG\
                             FRVWV RQ ORDQV RU ORDQ JXDUDQWHHV/ LQVXUDQFH/ RU ERQGV> +7,
                             FRVWV QRW LQFXUUHG E\ LPSOHPHQWLQJ UHFRPPHQGHG
                             LPSURYHPHQWV UHODWHG WR WKH RSHUDWLRQV RI WKH HVWDEOLVKPHQW/
                             D FRQWUDFWRU RU JUDQWHH> +8, DYRLGDQFH RI XQQHFHVVDU\
                             H[SHQGLWXUHV QRWHG LQ SUHDZDUG UHYLHZV RI FRQWUDFW RU JUDQW
                             DJUHHPHQWV> RU +9, DQ\ RWKHU VDYLQJV ZKLFK DUH VSHFLILFDOO\
                             LGHQWLILHG1




                                           5;
                      ig
           $SULO 5334 6HPL$QQXDO 5HSRUW




    6SHFLDO WKDQNV WR WKH 2IILFH RI 3XEOLVKLQJ
        IRU WKH SURGXFWLRQ RI WKLV UHSRUW=

     .HYHQ %ODNH= &RYHU GHVLJQ DQG SKRWRJUDSK\

3DPHOD '\VRQ= 5HSRUW GHVLJQ DQG FRPSRVLWLRQ VHUYLFHV

      3ULQWLQJ 2SHUDWLRQV= 5HSURGXFWLRQ VHUYLFH




                        5<
  ,I \RX VXVSHFW )UDXG/ :DVWH/ $EXVH/ RU RWKHU PLVFRQGXFW DW WKH
       ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ/ SOHDVH FRQWDFW XV DW=

                      ,*+RWOLQH#XVLWF1JRY
                              RU
                  (WKLFV/LQH 400;3300833003666
                              RU
              KWWS=22ZZZ1XVLWF1JRY2RLJ2RLJKRW1KWP

7KH (WKLFV/LQH LV DYDLODEOH 57 KRXUV SHU GD\1 7KH FDOOHU FDQ UHPDLQ
  DQRQ\PRXV1 ,I \RX SUHIHU/ \RX PD\ VHQG ZULWWHQ FRPSODLQWV WR=

            8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ
                  2IILFH RI ,QVSHFWRU *HQHUDO
                            5RRP 848
                       833 ( 6WUHHW/ 61:1
                    :DVKLQJWRQ/ '& 53769

)HGHUDO HPSOR\HHV DUH SURWHFWHG IURP UHSULVDO XQGHU WKH SURYLVLRQV
RI WKH :KLVWOHEORZHU 3URWHFWLRQ $FW RI 4<;<1 )RU PRUH LQIRUPDWLRQ/
 VHH WKH 063% SXEOLFDWLRQ HQWLWOHG ´4XHVWLRQV DQG $QVZHUV $ERXW
  :KLVWOHEORZHU $SSHDOVµ/ ZKLFK LV DYDLODEOH LQ WKH 0DLQ /LEUDU\/
               WKH 2IILFH RI 3HUVRQQHO/ DQG WKH 2,*1
